1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
_________________
No. 18-3342
Joseph S. McGreal,
Plaintiff,
v.
Village of Orland Park, et al.,
Defendants-Appellees.
___________
Appeal of: John P. DeRose, Counsel for Plaintiff,
Appellant.
Filed: June 26, 2019
_________________
Before Kanne, Sykes, and Brennan, Circuit Judges.
Kanne, Circuit Judge. The Village of Orland Park
fired police officer Joseph McGreal in 2010. McGreal
sued, alleging that the Village fired him in retaliation
for remarks he made at a community board meeting.
The district court granted summary judgment for the
defendants, finding that McGreal had advanced only
speculation to support his claims. We affirmed and also
remarked on the dearth of evidence to support
McGreal’s allegations.
After we affirmed summary judgment, the district
court granted the defendants’ motion for attorney fees
and directed John P. DeRose—McGreal’s attorney—to
pay $66,191.75 to the defendants. DeRose now appeals
that order. Because the district court did not abuse its
discretion, we affirm.

2a
I. BACKGROUND
Our 2017 opinion provides a summary of McGreal’s
suit. See McGreal v. Vill. of Orland Park, 850 F.3d 308,
310 (7th Cir. 2017). Suffice to say, the Village of Orland
Park fired McGreal from the police force after he spoke
at a November 2009 village board meeting. At the
meeting, he suggested several solutions to a budgetary
shortfall facing the Village. McGreal’s recommendations
would have protected junior officers from layoffs by
eliminating benefits enjoyed by more senior officers.
McGreal believes that these suggestions motivated his
June 2010 termination. But the Village contends that it
fired McGreal because he repeatedly engaged in misconduct during late 2009 and early 2010.
McGreal contested his termination through arbitration. The arbitrator sustained 75 of the 76 disciplinary
charges in McGreal’s record and concluded that the Village fired McGreal for just cause.
In June of 2012, McGreal commenced a federal lawsuit, pro se, against the Village and several members of
the police department. On October 19, 2012, attorney
John DeRose appeared as plaintiff’s counsel. He
promptly filed an amended complaint on McGreal’s behalf. After the defendants filed a motion to dismiss, the
court dismissed most claims but permitted several (significantly narrowed) claims to proceed.
DeRose aggressively pursued discovery: he took
twelve depositions, made 294 document requests, and
filed three motions to compel. During discovery, defense counsel asked DeRose on multiple occasions to
end the litigation. On February 3, 2014, defense counsel
sent DeRose an email requesting dismissal of several
individual defendants because discovery had revealed
no evidence to support the claims against them. Then in
July 2014, defense counsel sent DeRose a letter advanc-

3a
ing similar arguments. Defense counsel threatened
Rule 11 sanctions in both communications.
After discovery, McGreal voluntarily dismissed six
defendants but defended against summary judgment on
the remaining four defendants. The district court
granted judgment for defendants. The court began by
noting that DeRose’s summary judgment filings did not
comply with Northern District of Illinois Local Rule
56.1 (which provides guidelines for submitting a statement of facts at summary judgment). “[T]he motion
could have been granted by simply rejecting plaintiff’s
Local Rule 56.1 submissions,” but the court opted to resolve the summary judgment motion on its merits. The
court explained that the defendants had offered evidence to support their theories of defense, and
McGreal’s arguments and evidence to the contrary
were speculative.
On June 6, 2016, McGreal appealed. Several weeks
later, the defendants filed a motion for attorney fees.
The defendants spent most of the motion arguing that
the court should award fees under the 42 U.S.C. § 1988
fee-shifting provision. They also argued that the court
should sanction DeRose pursuant to Federal Rule of
Civil Procedure 11.
On March 6, 2017, we affirmed the judgment for the
defendants. 850 F.3d 308. Like the district court, we
found that McGreal had “offered no admissible evidence
showing that he [was] entitled to relief.” Id. at 310.
Several months later, the district court granted the defendants’ motion for fees. Instead of relying on § 1988
fee-shifting, the court concluded that “under Rule 11,
McGreal’s counsel’s summary judgment filings were not
well grounded in fact or warranted by existing law or a
good faith argument for the extension, modification, or
reversal of existing law.” Ultimately, the court ordered

4a
DeRose to pay $66,191.75 in fees (the amount defendants incurred in preparing their Rule 11 letters, seeking
summary judgment, and requesting attorney fees).
DeRose promptly appealed.
II. ANALYSIS
We review the imposition of Rule 11 sanctions for
abuse of discretion. N. Illinois Telecom, Inc. v. PNC
Bank, N.A., 850 F.3d 880, 883 (7th Cir. 2017). “An abuse
of discretion may be established if the district court
based its decision on an erroneous view of the law or a
clearly erroneous evaluation of evidence.” Id. Rule 11
requires attorneys to certify that every court filing advances arguments warranted by existing law or a
nonfrivolous argument for extending the law. Fed. R.
Civ. P. 11(b)(2). Similarly, the factual contentions attorneys advance must have evidentiary support or be likely to have evidentiary support after a reasonable opportunity for further investigation. Id. at 11(b)(3).
In his brief on appeal, DeRose first argues that the
defendants did not follow the Rule 11 procedures for
seeking sanctions. Specifically, Rule 11(c)(2) specifies
that a party may file a “motion for sanctions,” “but it
must not be filed or be presented to the court if the
challenged paper, claim, defense, contention, or denial is
withdrawn or appropriately corrected within 21 days
after service or within another time the court sets.” In
other words, Rule 11(c)(2) creates a safe-harbor. The
moving party must serve the motion on the alleged violator and permit twenty-one days to remedy the violation.
DeRose correctly notes that defense counsel never
served him with a motion before seeking sanctions. Rather, they sent him letters and emails raising their concerns and threatening sanctions. A letter is not a motion, and, under the law of eight circuits, these informal

5a
communications would not satisfy the Rule 11(c)(2) requirements. See Penn, LLC v. Prosper Bus. Dev. Corp.,
773 F.3d 764, 768 (6th Cir. 2014) (explaining that the
Second, Third, Fourth, Fifth, Sixth, Eighth, Ninth, and
Tenth Circuits all require strict compliance). The Seventh Circuit, however, interprets Rule 11(c)(2) differently.
In Nisenbaum v. Milwaukee Cty., we held that the
defendants “complied substantially” with Rule 11(c)
when they sent opposing counsel “a ‘letter’ or ‘demand’
rather than a ‘motion.’” 333 F.3d 804, 808 (7th Cir.
2003). We are the sole circuit to adopt this “substantial
compliance” theory, and other circuits have subsequently criticized our analysis as cursory and atextual. See,
e.g., In re Pratt, 524 F.3d 580, 588 (5th Cir. 2008) (“[T]he
Seventh Circuit provided little analysis and cited no authority for its holding.”); Roth v. Green, 466 F.3d 1179,
1193 (10th Cir. 2006) (similar); see also Manrique v.
United States, ––– U.S. ––––, 137 S. Ct. 1266, 1272, 197
L.Ed.2d 599 (2017) (indicating that, if properly raised,
mandatory claim-processing rules are “unalterable” (citation omitted)); In re Wade, No. 18-2564, 926 F.3d 447,
450–51, 2019 WL 2482413, at *3 (7th Cir. June 14, 2019)
(applying Manrique to claim-processing rules in bankruptcy cases).
DeRose’s argument that the defendants should have
served him with their Rule 11 motion—not just emails
and letters—is directly foreclosed by our holding in
Nisenbaum. And DeRose does not ask us to overrule
Nisenbaum—he repeatedly disavowed that argument
at oral argument. Even if DeRose did advance this argument, he’s waived it. He didn’t argue before the district court that the defendants failed to comply with
Rule 11(c)(2) until his motion for reconsideration of the
order imposing sanctions. (Laserage Tech. Corp. v.

6a
Laserage Labs., Inc., 972 F.2d 799, 804 (7th Cir. 1992)
(explaining that raising issues or arguments for the first
time in a motion for reconsideration do not preserve
them for appeal) (citing Bally Export Corp. v. Balicar,
Ltd., 804 F.2d 398, 404 (7th Cir. 1986))). Accordingly, we
leave any reconsideration of Nisenbaum for another
day. See also N. Ill. Telecom, Inc., 850 F.3d at 887–88.
DeRose also argues that the district court abused its
discretion because he agreed to represent McGreal in
good faith and after careful consideration. That argument is inadequate for two reasons. First, the district
court sanctioned DeRose for his decision to defend
against summary judgment. The court didn’t question
DeRose’s decision to represent McGreal or seek discovery. The sanctionable behavior was DeRose’s decision
to continue litigating after discovery revealed no evidence to support McGreal’s claims.
Second, “Rule 11 requires counsel to study the law
before representing its contents to a federal court. An
empty head but a pure heart is no defense.” Thornton v.
Wahl, 787 F.2d 1151, 1154 (7th Cir. 1986). The test is
objective. An attorney cannot avoid sanctions by claiming subjective good faith if a reasonable inquiry into the
facts and law would have revealed the frivolity of the
position. Cuna Mut. Ins. Soc. v. Office & Prof’l Emp.
Int’l Union, Local 39, 443 F.3d 556, 560 (7th Cir. 2006);
Harlyn Sales Corp. Profit Sharing Plan v. Kemper
Fin. Servs., Inc., 9 F.3d 1263, 1270 (7th Cir. 1993).
In other words, DeRose’s duty to conduct a reasonable investigation into the law and facts supporting
McGreal’s claims did not end after he chose to represent
McGreal. That duty renews at each stage of the litigation, including summary judgment. In fact, the duty
compounds. An attorney might reasonably believe that
discovery will reveal evidentiary support. After discov-

7a
ery, an attorney may proceed only if that hypothetical
evidence has materialized.
And the district court did not abuse its discretion
when it found that DeRose violated Rule 11 by opposing summary judgment. The district court found that
McGreal lacked evidence to support at least one element of each claim. And we agreed, finding that
McGreal hadn’t produced any admissible evidence on
the claims he appealed. 850 F.3d at 310.
DeRose didn’t just disregard the complete lack of
evidence. The district court found that DeRose’s “responses to defendants’ statements of material facts
were laden with disingenuous and misleading statements.” And, as already mentioned, DeRose’s statement of facts did not comply with the Local Rule 56.1
standards. 1 Viewed in totality, DeRose’s summary
judgment submissions fell short of the Rule 11 requirements. The district court did not abuse its discretion by
imposing sanctions.
III. CONCLUSION
Attorneys must satisfy Rule 11’s requirements during the entire pendency of the litigation. Discovery revealed an utter lack of evidentiary support for
McGreal’s claims, but DeRose defended against summary judgment anyway. Accordingly, we AFFIRM the
district court’s sanctions against DeRose.
That failure is particularly difficult to understand because the
district court, in its standing order, directs counsel to read Malec v.
Sanford, 191 F.R.D. 581 (N.D. Ill. 2000), before submitting statements of fact under Local Rule 56.1. And the court in Malec admonished DeRose himself for failure to comply with the same local
rule. Id. at 582–87.

1

8a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
_________________
No. 12-cv-5135
Joseph S. McGreal,
v.
Village of Orland Park, et al.,
___________

Plaintiff,
Defendants.

OPINION AND ORDER
Plaintiff Joseph McGreal filed a first amended complaint against defendants the Village of Orland Park
(“the Village”), and Timothy McCarthy, Thomas
Kenealy, Patrick Duggan, Joseph Mitchell, Anthony
Farrell, Scott Malmborg, Timothy McCormick, and
James Bianchi (collectively, the “individual defendants”), members of the Orland Park Police Department
(the “Police Department”). 1 In his ten-count first
amended complaint, McGreal alleges that he was terminated without due process in violation of the Fourteenth Amendment and that he was retaliated against
in violation of the First Amendment. He also has alleged state law claims for tortious interference with
advantageous business relations, breach of contract,
and intentional infliction of emotional distress. McGreal
The court has jurisdiction pursuant to 28 U.S.C. §§ 1331 and
1367. Venue is proper under 28 U.S.C. § 1391.

1

9a
seeks a declaratory judgment regarding the construction of a collective bargaining agreement and the conduct of the arbitration hearing and seeks recovery from
the Village under theories of respondeat superior and
indemnification. Before the court is defendants’ motion
to dismiss the complaint pursuant to Federal Rules of
Civil Procedure 12(b)(1) and 12(b)(6). For the following
reasons, their motion [# 59] is granted in part and denied in part.
LEGAL STANDARD
Rule 12(b)(1) provides that a case will be dismissed if
the court lacks the authority to hear and decide the
dispute. The standard of review for a Rule 12(b)(1) motion to dismiss depends on the purpose of the motion.
See United Phosphorous, Ltd. v. Angus Chem. Co., 322
F.3d 942, 946 (7th Cir. 2003) (en banc). If subject matter
jurisdiction is not evident from the face of the complaint, the court analyzes the motion to dismiss under
Rule 12(b) (1) as any other motion to dismiss and assumes for purposes of the motion that the allegations in
the complaint are true. Id. Where, as here, however,
“the complaint is formally sufficient but the contention
is that there is in fact no subject matter jurisdiction,
the movant may use affidavits and other materials to
support the motion.” Id.
A motion to dismiss under Rule 12(b)(6) challenges a
complaint for failure to state a claim upon which relief
may be granted. Fed.R.Civ.P. 12(b)(6); Gen. Elec. Capital Corp. v. Lease Resolution Corp., 128 F.3d 1074,
1080 (7th Cir. 1997). In reviewing a Rule 12(b)(6) motion, the court takes as true all facts in the complaint
and draws all reasonable inferences in favor of the
plaintiff. Dixon v. Page, 291 F.3d 485, 486–87 (7th Cir.

10a
2002). To survive a Rule 12(b)(6) motion, the complaint
must not only provide the defendant with fair notice of
the claim’s basis but must also establish that the requested relief is plausible on its face. Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009); see Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007). The allegations in the complaint must be “enough to raise a right of relief above
the speculative level.” Twombly, 550 U.S. at 555. At the
same time, the plaintiff need not plead legal theories.
Hatmaker v. Mem.‘l Med. Ctr., 619 F.3d 741, 742–43
(7th Cir. 2010). Rather, it is the facts that count.
BACKGROUND 2
McGreal began working as a full-time, sworn Orland
Park police officer on January 10, 2005 after graduating
from the Chicago Police Academy as the valedictorian
of his class. McGreal’s performance evaluations consistently indicated that he met or exceeded the Police
Department’s standards.
At some point after he began working for the Police
Department, McGreal was elected secretary of the
Metropolitan Alliance of Police # 159 (“M.A.P.159”), the
union representing the Village’s police officers. As a
M.A.P. 159 member, McGreal represented union members during disciplinary proceedings, filed union grievThe following facts are taken from the first amended complaint
and attached exhibits and are presumed true for the purpose of
resolving the present motion. See Barnes v. Briley, 420 F.3d 673,
677 (7th Cir. 2005). The court may consider the arbitrator’s decision in deciding defendants’ Rule 12(b)(1) motion. See United
Phosphorous, 322 F.3d at 946. The court takes judicial notice of the
filings defendants have attached to their motion to dismiss and reply, as these are matters of public record. See Ennenga v. Starns,
677 F.3d 766, 773 (7th Cir. 2012).
2

11a
ances to resolve contract disputes with the Village, and
attended Village meetings on the union’s behalf. On
November 2, 2009, McGreal attended a Village board
meeting during which, as both a M.A.P. 159 representative and a private citizen, he spoke against the Village’s
plan to lay off up to seven police officers in an attempt
to eliminate the Village’s 2010 budget operating shortfall. Although no police officers were permanently laid
off, budget cuts were instated and the Police Department supervisors’ salaries and benefits were reduced.
After these salary reductions, McCarthy, the police
chief, directed the other individual defendants, all Police Department supervisors, to interrogate McGreal.
McGreal was accused without substantiation of violating departmental policies. Police Department policies
were also enforced inequitably against him in comparison to other similarly situated employees. McGreal responded by filing two formal complaints that he was
being subjected to a hostile work environment. McCarthy and Stephana Przybylski, the Village’s human resources director, received the complaints. Duggan was
initially ordered to investigate McGreal’s complaint, but
that order was rescinded. The Village then conducted
an investigation and found no misconduct. McGreal filed
a FOIA request to review the investigation, which the
Village denied. McGreal appealed the denial to the Public Access Counselor of the Office of the Illinois Attorney General. The Village was thereafter ordered to
comply with McGreal’s FOIA request but it nonetheless
refused to release the documents.
On December 22, 2009, M.A.P. 159 filed an unfair labor practice charge against the Village on McGreal’s
behalf, alleging twelve violations of the Illinois Public

12a
Labor Relations Act as well as disparate treatment.
Subsequently, on January 21, 2010, the Village conducted a formal interrogation of McGreal without alleging or advising him of any violations. McGreal’s
counsel was not allowed access to documents related to
the Village’s investigation prior to the interrogation. On
March 5, 2010, McCarthy ordered that McGreal be interrogated again and also placed him on administrative
leave. The second interrogation, led by McCarthy,
Duggan, and Thomas Melody, an attorney, occurred on
March 24, 2010. On April 9, 2010, McCarthy then offered McGreal three or four years of salary and benefits
if McGreal agreed to resign as a police officer. Another
meeting occurred on April 28, 2010, with Kenealy,
Duggan, McGreal, and McGreal’s counsel in attendance.
No allegations or charges were discussed at that time,
nor was any discovery provided to McGreal.
On June 3, 2010, McCarthy ordered McGreal to
submit a report detailing the alleged acts of misconduct
the individual defendants committed, and McGreal provided an eight-page report the following day. McGreal
then received a list of charges alleging seventy-six acts
of misconduct he had committed over the past eleven
months. The charges were also presented to the Village
Board of Fire and Police Commissioners on June 5,
2010. The Board was to hold a hearing within thirty
days, but before that could take place, McGreal filed a
grievance contesting the charges and, on June 25, 2010,
invoked his right to arbitrate the charges under the
collective bargaining agreement (“CBA”) between
M.A.P. 159 and the Village. McGreal was terminated on
June 28, 2010.

13a
Under the CBA, if the union and Village did not
agree to an arbitrator within five days of the arbitration
request, a list of arbitrators was to be provided by the
Federal Mediation and Conciliation Service. The potential arbitrators were to be members of the National
Academy of Arbitrators in the Midwest region. Dennis
Stoia, who McGreal later learned was not a member of
the National Academy of Arbitrators, was selected as
the arbitrator for McGreal’s hearing from this list. The
arbitration hearing began on January 26, 2011. Testimony was heard on seventeen days over a course of
fourteen months. The defendant officers testified,
providing false testimony and fabricating new allegations of misconduct. Before the second day of testimony,
on February 8, 2011, Stoia met with counsel for both
sides and informed them that he believed McGreal was
a liar, despite the fact that McGreal had not yet testified or offered any evidence in his defense. Stoia also
met with McGreal and his union counsel that day, repeating that he believed McGreal was a liar and stating
that McGreal would not get his job back.
As the hearing continued, McGreal received a signed
affidavit from Thomas Antkiewicz, another member of
the Police Department, in which Antkiewicz asserted
that the Village attorney, through M.A.P.’s chief counsel, offered that if Antkiewicz testified falsely at the
hearing against McGreal, the Village would not investigate a disciplinary complaint pending against
Antkiewicz. This bribery attempt was brought to
Stoia’s attention, but Stoia did not allow Antkiewicz to
testify to the issue.
On January 6, 2012, McGreal learned that Stoia was
not a member of the National Academy of Arbitrators.

14a
McGreal then filed a pro se motion to stay arbitration,
claiming that because Stoia did not meet the CBA’s requirements for arbitrators, he lacked subject matter
jurisdiction to conduct the hearing. Stoia refused to
acknowledge or rule on the motion to stay arbitration.
A decision was ultimately rendered on November 14,
2012, in which Stoia found by a preponderance of the
evidence that there was just and sufficient cause for
McGreal’s termination.
In addition to pursuing the arbitration hearing,
McGreal applied for jobs with various other area police
departments. The Arlington Heights and Villa Park police departments rejected his applications out of hand
due to his termination from the Police Department.
Although ranked first on Mokena’s eligibility list when
there was at least one vacancy, McGreal was not selected after reaching the final step because he failed a
background check. McGreal remains unemployed.
ANALYSIS
I. Mootness
Under Article III of the United States Constitution,
federal courts have jurisdiction over live cases and controversies. A case becomes moot, however, “when the
dispute between the parties no longer rages, or when
one of the parties loses his personal interest in the outcome of the suit.” Holstein v. City of Chicago, 29 F.3d
1145, 1147 (7th Cir. 1994). Defendants argue that
McGreal’s claims that he was improperly terminated
without the hearing to which he was entitled and without a finding of just cause are moot because McGreal
received the arbitration hearing that he requested and
the arbitrator rendered a finding that McGreal was

15a
terminated with just cause. 3 This decision renders a
request for an injunction ordering such relief moot. See
Medlock v. Trs. of Indiana Univ., 683 F.3d 880, 882 (7th
Cir. 2012). But McGreal is not seeking an injunction but
rather damages for the alleged deprivation of procedural due process. 4 McGreal’s damages request is not
mooted by the conclusion of the arbitration hearing or
the arbitrator’s finding that McGreal was terminated
with just cause. See Witvoet ex rel. Witvoet v. Herscher
Cmty. Unit Sch. Dist. No. 2, No. 97–CV–2243, 1998 WL
1562916, at *2 (C.D.Ill. May 27, 1998) (where plaintiff
seeks monetary compensation for due process violation,
“mootness argument is simply without merit since these damages clearly still exist”); cf. Cent. Soya Co., Inc.
v. Consolidated Rail Corp., 614 F. 2d 684, 686–87 & n. 4
(7th Cir.1980) (request for preliminary injunction moot
where dispute ended and no incidental damage claims
were left to be adjudicated).
McGreal’s damages request is limited by the arbitrator’s decision. He cannot recover damages for injuries caused by his termination where it has been determined that he would have been terminated had a proper
hearing been held prior to that termination. See Carey
v. Piphus, 435 U.S. 247, 260, 98 S.Ct. 1042, 55 L.Ed. 2d
252 (1978). McGreal may, however, be awarded damages for any injury caused by the alleged denial of due
process if he can demonstrate that such injury actually
These claims are asserted in counts I, IV, and V.
McGreal’s request for a declaration in count IV that he could not
be terminated without a finding of just cause “by a statutorily authorized trier of fact” is not moot, for this request is not just for a
finding but for a finding by an arbitrator authorized by the CBA to
make that finding.

3
4

16a
was caused by the denial. Carey, 435 U .S. at 264; Alston v. King, 231 F.3d 383, 386 (7th Cir. 2000). For example, McGreal may be entitled to lost pay for the period from which he was terminated through the time
when he would have been terminated had proper procedures been followed. See Nalls v. Bd. of Trs. of Ill.
Cmty. Coll. Dist. No. 508, 2007 WL 1031155, at *5
(N.D.Ill. Mar. 29, 2007) (citing Patterson v. Portch, 853
F. 2d 1399, 1408 (7th Cir. 1988)). At the least, he is entitled to nominal damages for any procedural due process
violation. Carey, 435 U.S. at 266–67; see also Prato v.
Bd. of Educ. of City of Chicago, 202 F.3d 274 (Table)
(7th Cir. 1999) (if sought, nominal damages for procedural errors are available after final discharge decision
made); Dudgeon v. Frank, No. 06–C–0563–C, 2006 WL
3754796, at *3 (W.D.Wis. Dec.7, 2006) (plaintiff could
proceed with procedural due process claim even though
hearing had occurred, as nominal damages remained
available).
McGreal argues that he was entitled to a hearing
prior to being terminated and that the just cause finding must have been made prior to termination. Although he has now been afforded process, he retains the
ability to argue that he was entitled to that process
prior to the deprivation. On the other hand, defendants
may have a defense to McGreal’s claims that he was entitled to a pre-termination hearing if they demonstrate
exigent circumstances that justified immediate termination. See Gilbert v. Homar, 520 U.S. 924, 930 (1997)
(“[W]here a State must act quickly, or where it would
be impractical to provide predeprivation process,
postdeprivation process satisfies the requirements of
the Due Process Clause.”). But that determination cannot be made on a motion to dismiss. Thus, because

17a
McGreal may be entitled to damages for any procedural
due process violations, his claims related to the need for
a hearing and finding of just cause before termination
are not moot.
II. Statute of Limitations
Defendants next argue that the statute of limitations
bars all allegations of § 1983 violations that occurred
prior to McGreal’s termination on June 28, 2010. Although § 1983 does not impose an express statute of limitations, § 1983 claims are governed by the forum state’s
statute of limitations for personal injury claims. Henderson v. Bolanda, 253 F.3d 928, 931 (7th Cir. 2001).
Under Illinois law, that time period is two years. 735 Ill.
Comp. Stat. 5/13–202. McGreal filed suit on June 27,
2012, making any alleged § 1983 violations that occurred
prior to June 28, 2010 time-barred.
McGreal argues that his claims regarding actions
that took place prior to his termination are not
time-barred under the continuing violation doctrine.
Under the continuing violation doctrine, where a series
of events injures a plaintiff, he can “reach back” to the
beginning of the wrong “even if that beginning lies outside the statutory limitations period, when it would be
unreasonable to require or even permit him to sue separately over every incident of the defendant’s unlawful
conduct.” Heard v. Sheahan, 253 F.3d 316, 319 (7th Cir.
2001). The continuing violation doctrine does not apply
to “a series of discrete acts, each of which is independently actionable, even if those acts form an overall
pattern of wrongdoing.” Hukic v. Aurora Loan Servs.,
588 F.3d 420, 435 (7th Cir. 2009); Pruitt v. City of Chicago, Illinois, 472 F.3d 925, 927 (7th Cir. 2006) (“That

18a
discrete acts may have been mixed with a hostile environment does not extend the time....”).
McGreal argues that the continuing violation doctrine applies because he was subjected to a hostile work
environment. But McGreal has not brought a hostile
work environment claim, instead asserting only retaliation claims. “[E]ach retaliatory adverse employment
decision constitutes a separate actionable ‘unlawful employment practice.’ “ Nat’l R.R. Passenger Corp. v.
Morgan, 536 U.S. 101, 114 (2002). McGreal’s complaint
pinpoints the dates of the allegedly retaliatory actions.
The continuing violation doctrine applies to a series of
acts “only if their character was not apparent when
they were committed but became so when viewed in
light of the later acts.” McDonough v. City of Chicago,
743 F.Supp. 2d 961, 970 (N.D.Ill. 2010) (citation omitted)
(internal quotation marks omitted) (where evidence
showed that plaintiff was aware of retaliatory nature of
defendants’ actions at the time they occurred, continuing violation doctrine did not apply to time-barred actions). McGreal recognized these actions as retaliatory
at the time they occurred, even filing two formal complaints that he was being subjected to a hostile work
environment in addition to an unfair labor practices
charge in December 2009. See Tinner v. United Ins. Co.
of Am., 308 F.3d 697, 708 (7th Cir. 2002) (“[I]f the employee knew, or with the exercise of reasonable diligence should have known, that each act, once completed, was discriminatory, the employee must sue upon
that act within the relevant statutory period.”).
Thus, only McGreal’s claim of retaliatory termination—which defendants acknowledge falls within the
statute of limitations—is viable. See Thompson v.

19a
White, 67 F. App’x 355, 357 (7th Cir. 2003) (“[T]he continuing violation doctrine does not apply to discrete acts
of discrimination that can be pinpointed to a particular
day. Thompson could have sued for the allegedly retaliatory employment references when they occurred; he
did not need to wait for a pattern of retaliation to unfold.” (citation omitted)). Acts that occurred outside the
statutory time frame, however, may still be used as
background evidence in support of McGreal’s timely
claim. Morgan, 536 U.S. at 113. Thus, although McGreal
may only pursue his retaliation claims with respect to
his termination and any subsequent events, the court
will not strike allegations of events that occurred prior
to June 28, 2010, for they may be considered in evaluating McGreal’s retaliation and other claims.
III. Immunity for Testimony Given Under
Oath During the Arbitration Hearing
The individual defendants argue that they are entitled to absolute immunity for any statements they made
under oath during the arbitration hearing. It is well established that a witness has absolute immunity from
civil liability for the giving of his testimony at trial.
Briscoe v. LaHue, 460 U.S. 325, 332–33 (1983). The
Briscoe court, over dissents by Justices Blackmun,
Brennan, and Marshall, refused to recognize an exception for police officer witnesses. Id. at 335–36.
Witness immunity has been extended to testimony
provided in quasi-judicial and administrative proceedings. See Bilal v. Wolf, No. 06 C 6978, 2009 WL 1871676,
at *7 (N.D.Ill. June 25, 2009) (collecting cases);
Cichowski v. Hollenbeck, No. 05–C–262–C, 2005 WL
1181957, at *2 (W.D.Wis. May 18, 2005) (absolute immunity for witnesses “extends to any hearing before a

20a
tribunal which performs a judicial function” (quoting W.
Prosser, Law of Torts § 94, pp. 826–27 (1941))). Arbitrations like that at issue here have been recognized as
quasijudicial proceedings. See Hartlep v. Torres, 756
N.E. 2d 371, 373, 324 Ill.App.3d 817 (2001) (disciplinary
hearing before board of fire and police commissioners
was quasijudicial warranting application of absolute
privilege); Bushell v. Caterpillar, Inc., 683 N.E. 2d
1286, 1288, 291 Ill.App.3d 559 (1997) (arbitral tribunal
convened pursuant to collective bargaining agreement
was quasi-judicial in nature); Rolon v. Henneman, 517
F.3d 140, 145–46 (2d Cir. 2008) (extending absolute immunity to witnesses testifying at police disciplinary
hearings and arbitrations that are “conducted in a
manner equivalent to that of the judicial process”);
Lettis v. U.S. Postal Serv., 39 F.Supp. 2d 181, 206
(E.D.N.Y.1998) (collecting cases). Because the hearing
was conducted in a manner equivalent to the judicial
process and the witnesses testified under oath, the individual defendants are afforded absolute immunity for
their testimony under oath during the arbitration hearing. Rolon, 517 F.3d at 146–47.
IV. Existence of Adequate Post-Deprivation
Remedies for Due Process Violation
To state a claim for violation of procedural due process under the Fourteenth Amendment, a plaintiff must
allege “(1) deprivation of a protected interest, and (2)
insufficient procedural protections surrounding that
deprivation.” Michalowicz v. Vill. of Bedford Park, 528
F.3d 530, 534 (7th Cir. 2008). Defendants do not dispute
that McGreal had a protected property interest, focusing instead on the second inquiry. “The fundamental
requirement of due process is the opportunity to be
heard ‘at a meaningful time and in a meaningful matter.’

21a
“ Mathews v. Eldridge, 424 U.S. 319, 333 (1976) (quoting
Armstrong v. Manzo, 380 U.S. 545, 552 (1965)). The
right is “flexible, requiring different procedural protections depending upon the situation at hand.” Doyle v.
Camelot Care Ctrs., Inc., 305 F.3d 603, 618 (7th Cir.
2002). Where the deprivation is random and unauthorized, there is no procedural due process violation if a
meaningful post-deprivation remedy is available. Hudson v. Palmer, 468 U.S. 517, 533 (1984). McGreal does
not dispute that he challenges the “random and unauthorized” actions of the defendants but argues that
state law remedies are inadequate to address the alleged due process violations that occurred both before
and after his termination. A state law remedy is not inadequate unless it “can readily be characterized as inadequate to the point that it is meaningless or nonexistent, and, thus, in no way can be said to provide the
due process relief guaranteed by the fourteenth
amendment.” Easter House v. Felder, 910 F. 2d 1387,
1406 (7th Cir.1990) (en banc).
With respect to any post-termination claims, defendants argue that McGreal has at his disposal adequate state law remedies to review the arbitration
hearing and the defendants’ conduct during it. Specifically, they contend that the Uniform Arbitration Act,
which McGreal is already making use of, provides for
review of the arbitrator’s decision. To the extent that
McGreal is challenging decisions made by the arbitrator, and not by defendants, those challenges are not
properly cognizable under § 1983 against the defendants in this case and must be made according to the

22a
procedures set forth to vacate an arbitration award. 5See
Papapetropoulous v. Milwaukee Transport Servs., Inc.,
795 F. 2d 591, 596 (7th Cir.1986) (where independent
arbitrator, and not defendant, made decisions that allegedly deprived plaintiff of his due process rights at
the hearing, court was “at a loss to understand how the
plaintiff can argue that [defendant] is the party responsible in a section 1983 action for the decisions of the independent arbitrator”); Ewing v. City of Monmouth,
Illinois, No. 06–1164, 2007 WL 2680823, at *3 (C.D.Ill.
July 18, 2007). As for McGreal’s allegation that defendants withheld exculpatory evidence during the arbitration hearing, that is something that also should have
been raised in a motion to vacate the arbitration award.
An arbitration award may be vacated if it “was procured by corruption, fraud or other undue means.” 710
Ill. Comp. Stat. 5/12. If the award is vacated on the basis that defendants withheld evidence, McGreal will
have the right to a new hearing to determine whether
there was just cause for his termination in which he
could use any such exculpatory evidence. Because this
would adequately address the alleged post-termination
due process violation, McGreal cannot proceed with his
procedural due process claims related to the arbitration
hearing. 6But McGreal’s pre-termination claim that he
McGreal may not be able to challenge the arbitral award, as the
Illinois Supreme Court has held that “individual employees represented by a union should only be allowed to seek judicial review of
an arbitration award if they can show that their union breached its
duty of fair representation.” Stahulak v. City of Chicago, 703 N.E.
2d 44, 48, 184 Ill. 2d 176, (1998).

5

Because the court has concluded that McGreal does not have a
claim for procedural due process violations related to his arbitration hearing, the court need not address defendants’ argument that

6

23a
was terminated prior to the arbitration hearing and was
thus denied the right to respond to charges against him
is not foreclosed by the existence of a state law remedy.
McGreal has the right to a pre-termination hearing,
although it need not be a full-blown hearing where adequate post-termination proceedings exist. See Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 546, 105
S.Ct. 1487, 84 L.Ed. 2d 494 (1985); Chaney v. Suburban
Bus Div. of Reg’l Transp. Auth., 52 F.3d 623, 628 (7th
Cir.1995) (“[A]n adequate post-deprivation remedy does
not necessarily preclude the requirement of a
predeprivation hearing where such a hearing was feasible and practical.”). Here, the CBA provides that discharge “may be imposed upon a post-probationary employee only for just cause,” and that a pre-disciplinary
meeting is required prior to the imposition or recommendation of discharge. Ex. A to First Am. Compl. §§
19. 2–19.3. The pre-disciplinary meeting must provide
the employee and union representative with “the opportunity to informally discuss, rebut or clarify the
reasons for contemplated disciplinary action.” Id . §
19.3. The complaint’s allegations suggest that no such
pre-disciplinary meeting or other opportunity to respond to the charges occurred.
Although “the added benefits in this case of
pre-termination notice and an opportunity to be heard
are not huge” because an extensive post-termination
hearing took place, “they are in no way insignificant.”
Chaney, 52 F.3d at 629; Moore v. Shaw, No. 07–1253,
2008 WL 2692123, at *5 (C.D.Ill. July 1, 2008) (“[E]ven
the intracorporate conspiracy doctrine bars McGreal’s § 1983 conspiracy claim. That claim relates only to the conduct of the arbitration hearing and is thus also dismissed

24a
if the post-deprivation grievance procedures are adequate, they do not retroactively cure insufficient
pre-deprivation process.”). But see Michalowicz v. Vill.
of Bedford Park, 528 F.3d 530, 537 (7th Cir. 2008)
(where post-termination hearing was available, alleged
pre-termination hearing deficiencies were not valid
grounds for due process claim). Because due process is a
“flexible concept” and the “requirements applicable to a
particular situation are highly fact-specific,” Fenje v.
Feld, 301 F.Supp. 2d 781, 799 (N.D.Ill. 2003), at this
stage, McGreal’s claims alleging pre-termination violations of his due process rights will not be dismissed. See
Chaney, 52 F.3d at 630; Stimeling v. Bd. of Educ., No.
07–13302008 WL 2876528, at *7 (C.D.Ill. July 24, 2008).
V. Monell Claim
The Village may be held liable under § 1983 when
“execution of a government’s policy or custom, whether
made by its lawmakers or by those whose edicts or acts
may fairly be said to represent official policy, inflicts the
injury.” Monell v. Dep’t of Soc. Servs., 436 U.S. 658, 694,
98 S.Ct. 2018, 56 L.Ed. 2d 611 (1978). Liability may be
based on (1) an express policy that, when enforced,
causes a constitutional deprivation; (2) a widespread
practice that, although not authorized by written law or
express municipal policy, is so permanent and well settled as to constitute a custom or usage with the force of
law; or (3) a constitutional injury caused by a person
with final policymaking authority. Baxter v. Vigo Cnty.
Sch. Corp., 26 F.3d 728, 734–35 (7th Cir.1994) (citing
Monell, 436 U.S. at 690–91).
McGreal alleges that the Village has a long-standing
practice of failing to adequately train, supervise, and
discipline its employees. He also alleges that McCarthy

25a
has final policymaking authority and that he deprived
McGreal of his right to a fair and impartial hearing related to his termination. In his response, he claims he
has alleged an express policy that an officer’s termination is imposed once arbitration is requested, but no
such allegation can be found in the first amended complaint.
The Village argues that McGreal’s Monell claim
must be dismissed because he has failed to adequately
support his allegations of a practice or policy. McGreal,
however, is not held to a heightened standard in pleading a Monell claim, even after Twombly and Iqbal. See
McCormick v. City of Chicago, 230 F.3d 319, 323 (7th
Cir. 2000) (citing Leatherman v. Tarrant Cnty. Narcotics Intelligence & Coordination Unit, 507 U.S. 163, 164,
113 S.Ct. 1160, 122 L.Ed. 2d 517 (1993)); Riley v. Cnty.
of Cook, 682 F.Supp. 2d 856, 861 (N.D.Ill. 2010). “[A]n
official capacity claim can survive even with conclusory
allegations that a policy or practice existed, so long as
facts are pled that put the defendants on proper notice
of the alleged wrongdoing.” Riley, 682 F.Supp. 2d at 861
(citing McCormick, 230 F.3d at 325).
McGreal has at this stage sufficiently alleged at least
one basis for Monell liability: that McCarthy is a final
policymaker who caused the constitutional deprivations
complained of. See McGreal v. Ostrov, 368 F.3d 657,
685–86 (7th Cir. 2004) (defendant police chief’s initiation
of termination proceedings against plaintiff actionable
under Monell where municipality had conceded that police chief was municipal policymaker with respect to
termination proceedings). Although McGreal will have
to establish, by reference to applicable state or local
law, that McGreal indeed was the final policymaker

26a
with respect to the Police Department’s employment
decisions, see Argyropoulos v. City of Alton, 539 F.3d
724, 740 (7th Cir. 2008), his allegations are sufficient at
this stage.
VI. Tortious Interference with Advantageous
Business Relations 7
To state a claim for tortious interference with advantageous business relations, McGreal must allege “(1)
a reasonable expectation of entering into a valid business relationship, (2) the defendant’s knowledge of the
expectation, (3) purposeful interference by the defendant that prevents the plaintiff’s legitimate expectancy
from ripening into a valid business relationship, and (4)
damage to the plaintiff resulting from the defendant’s
interference.” Atanus v. Am. Airlines, Inc., 932 N.E. 2d
1044, 1048, 403 Ill.App.3d 549 (2010). Defendants argue
that McGreal’s tortious interference claim should be
dismissed because he had no reasonable expectancy of
entering into a valid business relationship nor, by extension, can he establish that defendants purposefully
interfered with that expectancy.
McGreal alleges that he had an expectation of being
hired by several police departments he applied to after
being terminated by the Village. But it is well established that “[t]he hope of receiving a job offer is not a
sufficient expectancy” to allege a claim for tortious interference with a prospective employment relationship.
Anderson v. Vanden Dorpel, 667 N.E. 2d 1296, 1299,
172 Ill. 2d 399 (1996); see also Myers v. Phillips Chevrolet, Inc., No. 04 C 0763, 2004 WL 2403126, at *3
(N.D.Ill. Oct. 26, 2004) (“Federal courts applying Illinois
This tort claim is also commonly referred to as tortious interference with prospective economic advantage.
7

27a
law have repeatedly applied Anderson to reject claims
for intentional interference with prospective business
advantage where the plaintiff does not have an actual
job offer but instead has merely the hope of receiving a
job offer.”) (collecting cases). In Anderson, the plaintiff
alleged that she was the “leading candidate” for a position, that she had been sought out for the position by
the employer, and that she had been told her interviews
had gone well and she would be recommended for hire.
Anderson, 667 N.E. 2d at 1299–1300. But the court
stated that “favorable comments of the type allegedly
made [in Anderson ] should not be regarded as giving
rise to a legally protectible expectancy.” Id. at 1300. In
concluding that the allegations were not sufficient, the
court did note that it was not determining that “in all
cases a job applicant must have had a firm offer in hand
to state a cause of action for intentional interference
with prospective economic advantage.” Id. at 1299.
Anderson, decided under Illinois’s fact pleading
rules, does not compel dismissal here. McGreal has alleged that he was ranked first on the Village of Mokena’s eligibility list for police officers at a time when
there was an opening and that he was not hired because
of defendants’ actions. 8 First Am. Compl. ¶ 111. This is
not just McGreal’s subjective belief that he was the
“leading candidate” for the position; he alleges that he
was in fact the first in line to be hired for the open position. Under the federal notice pleading standards, this
is sufficient at this stage to demonstrate that he had a
In his response, McGreal claims he applied to nine police departments and had reached the final step with two departments.
His first amended complaint only alleges applications to three police departments and that he reached a final stage with one.

8

28a
reasonable expectancy of employment with the Village
of Mokena. See James v. Intercontinental Hotels Grp.
Res., Inc., No. 09–cv–781, 2010 WL 529444, at *4–5
(N.D.Ill. Feb.10, 2010) (allegations sufficient to state
reasonable expectancy in continued employment where
plaintiff alleged she had an exemplary work record,
consistently received positive performance evaluations,
and had been promoted to an executive level position,
distinguishing cases decided under Illinois’s fact pleading rules).
McGreal has also at this stage sufficiently alleged
the third element of a tortious interference claim, that
defendants purposefully interfered to prevent his hiring. McGreal has alleged that he “was denied the opportunity to be employed as a police officer due to the
actions of representatives of the Village of Orland
Park.” First Am. Compl. ¶ 110. Read in the light most
favorable to McGreal, this is sufficient to allege purposeful interference. McGreal will have to establish
through discovery the actions defendants took to interfere with his expectancy of employment with the Village of Mokena.
VII. Preemption of Breach of Contract Claim
Defendants further argue that McGreal’s breach of
contract claim for alleged CBA violations is preempted
by the Illinois Public Labor Relations Act (“IPLRA”), 5
Ill. Comp. Stat. 315/1 et seq. McGreal argues that because federal labor law preempts inconsistent state labor law, the IPLRA does not restrict the forum in
which he can maintain his claim. But the federal Labor
Management Relations Act expressly does not apply to
public employers such as the Village. See 29 U.S.C. §
152(2). Instead, “[t]he National Labor Relations Act

29a
leaves States free to regulate their labor relationships
with their public employees.” Davenport v. Washington
Educ. Ass’n, 551 U.S. 177, 181, 127 S.Ct. 2372, 168
L.Ed. 2d 71 (2007). Because McGreal’s employer was
the Village, “any claim involving the interpretation of
[his] collective bargaining agreements arises under Illinois law, not federal law.” Marconi v. City of Joliet,
989 N.E. 2d 722, 728, 2013 IL App (3d) 110865 (2013).
Therefore, the IPLRA governs whether McGreal’s
breach of contract claim may be maintained in this
court.
The IPLRA’s stated purpose is “to regulate labor
relations between public employers and employees, including the designation of employee representatives,
negotiation of wages, hours and other conditions of employment, and resolution of disputes arising under collective bargaining agreements.” 5 Ill. Comp. Stat. 315/2.
The IPLRA has been interpreted to confer exclusive
jurisdiction on the Illinois Labor Relations Board over
matters involving collective bargaining agreements
between public employers and employees, including
breach of contract claims. See Proctor v. Bd. of Educ.,
Sch. Dist. 65, Evanston, Ill., 392 F.Supp. 2d 1026, 1031
(N.D.Ill. 2005); Utomi v. Cook County, No. 98 C 3722,
1999 WL 787480, at *5 (N.D.Ill. Sept. 24, 1999); Cessna
v. City of Danville, 296 Ill.App.3d 156, 162–68, 693 N.E.
2d 1264 (1998). McGreal’s breach of contract claim is
founded on defendants’ alleged failure to comply with
the CBA. See First Am. Compl. ¶ 155. Allowing this
claim to go forward here “would undermine the
[IPLRA’s] stated purpose and frustrate the legislature’s intent to provide a uniform body of law in the
field of labor-management relations to be administered
by those who have the required expertise in this area.”

30a
Cessna, 693 N.E. 2d at 168. Since McGreal’s breach of
contract claim cannot be addressed without interpreting the CBA, this claim belongs before the Illinois Labor Relations Board and will be dismissed. 9
VIII. Colorado River Abstention
Next, defendants urge the court to abstain from exercising jurisdiction over McGreal’s declaratory judgment request pursuant to Colorado River Water Conservation District v. United States, 424 U.S. 800, 96
S.Ct. 1236, 47 L.Ed. 2d 483 (1976). McGreal seeks a
declaration that the Village and McCarthy could not
terminate McGreal’s employment without a finding of
just cause by an authorized trier of fact, that the arbitrator appointed pursuant to the CBA must meet the
qualifications set forth in Section 5.3(a) of the CBA, and
that by not meeting those requirements Stoia never had
subject matter jurisdiction to conduct the arbitration
hearing. Defendants argue that McGreal is seeking adjudication of the same issues in two state law forums—the Illinois Labor Relations Board and the Cook
County Chancery Court—and that the court should
avoid duplicative and piecemeal litigation by staying
consideration of McGreal’s declaratory judgment request.
The court need not reach the question of whether
Colorado River abstention applies, however, for
McGreal’s declaratory judgment claim mirrors his
breach of contract claim. The court has already deterTo pursue his breach of contract claim, McGreal would also have
to claim that the union breached its duty of fair representation.
Utomi, 1999 WL 787480, at *5 (“[U]nion members lack standing to
sue for breach of a collective bargaining agreement unless they
also claim that the union breached its duty of fair representation.”).
9

31a
mined that McGreal’s breach of contract claim is within
the exclusive jurisdiction of the Illinois Labor Relations
Board. The same analysis applies to McGreal’s declaratory judgment claim, which would involve determining
the meaning of the CBA. Because the Illinois Labor
Relations Board has exclusive jurisdiction over the
matters raised in McGreal’s declaratory judgment
claim, that claim will be dismissed.
IX. Official Capacity Suits against Individual
Defendants
Finally, the individual defendants argue that
McGreal’s claims against them in their official capacities
as Village employees should be dismissed as redundant.
A suit against a public official in his “official capacity” is
a suit against the entity of which that official is an
agent. Richman v. Sheahan, 270 F.3d 430, 439 (7th Cir.
2001). Because McGreal has named the Village as a defendant for his § 1983 claims, naming the individual defendants in their official capacities is superfluous. See
Jungels v. Pierce, 825 F. 2d 1127, 1129 (7th Cir.1987)
(where plaintiff sued the city, “nothing was added by
suing the mayor in his official capacity”). Therefore, the
official capacity claims against the individual defendants
will be dismissed. See Kiser v. Naperville Cmty. Unit,
227 F.Supp. 2d 954, 960–61 (N.D.Ill. 2002) (dismissing
claims against individuals sued in their official capacities because they served “no legitimate purpose”).
CONCLUSION
For the foregoing reasons, defendants’ motion to
dismiss [# 59] is granted in part and denied in part. All
claims against the individual defendants in their official
capacities are dismissed with prejudice. McGreal’s §
1983 claims (counts I–III and V) are limited to alleged

32a
violations occurring on or after June 28, 2010. McGreal’s
procedural due process claim (count I) is dismissed with
respect to allegations related to the arbitration hearing.
McGreal’s declaratory judgment claim (count IV) and
breach of contract claim (count VII) are dismissed
without prejudice to refiling before the Illinois Labor
Relations Board. The individual defendants have absolute immunity for their testimony under oath during the
arbitration hearing.
Defendants are given until August 23, 2013 to answer the first amended complaint. This case will be
called for a status hearing and scheduling conference on
September 26, 2013 at 8:30 a.m.
Date: August 2, 2013
/s/

Joan H. Lefkow
U.S. District Judge

33a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
_________________
No. 12-cv-5135
Joseph S. McGreal,
v.
Village of Orland Park, et al.,
___________

Plaintiff,
Defendants.

OPINION AND ORDER
In his second amended complaint,1 Joseph McGreal
alleges under 42 U.S.C. § 1983 that the Village of Orland Park (the Village) and three members of its Police
Department (OPPD), Timothy McCarthy, Patrick
On August 2, 2013, this court granted in part and denied in part
defendants’ motion to dismiss McGreal’s first amended complaint.
In that ruling, the court limited McGreal’s § 1983 claims (his Fourteenth Amendment, First Amendment, and Monell claims) to alleged violations occurring on or after June 28, 2010, further limited
his Fourteenth Amendment claim by excluding allegations relating
to an arbitration hearing conducted pursuant to a collective bargaining agreement, and dismissed his declaratory judgment and
breach of contract claims without prejudice to refiling in the proper
forum. (Dkt. 77.) On September 23, 2013, McGreal filed his second
amended complaint against the Village and seven members of its
police department (Dkt. 89) but later dismissed four of them, leaving McCarthy, Duggan, and Bianchi as the only individual defendants (Dkt. 178). This court has jurisdiction pursuant to 28 U.S.C. §§
1331, 1343, and 1367.
1

34a
Dugan, and James Bianchi, terminated his employment
without a proper pre–termination hearing, in violation
of his Fourteenth Amendment due process right (count
I) and in retaliation for his union activities in violation
of his First Amendment rights to freedom of association
(count II) and speech (count III). (Dkt. 89.) He also alleges a Monell policy claim based on Chief McCarthy’s
longstanding practice of failing to adequately train, supervise, and discipline its employees (count IV), 2 as well
as state law tort claims of interference with advantageous business relationship (count V), and intentional
infliction of emotional distress (count VIII). (Id.)
McGreal alleges that the Village is vicariously liable for
the state law claims against its employees (count VI)
and required under Illinois law to indemnify them for
any judgment entered against them (count VII). 3(Id.)
The defendants’ motion for summary judgment on all
counts is now before the court. (Dkt. 202.) For the reasons stated below, defendants’ motion (Dkt. 202) is
granted.
LEGAL STANDARD

While McGreal’s complaint makes allegations relating to a failure
to train theory, his submission fails to address this claim in any
meaningful way, such as with evidence suggesting a policy or practice of failing to train officers in a manner resulting in deprivation
of constitutional rights. As such, this claim is considered abandoned.

2

The Local Governmental and Governmental Employees Tort Immunity Act (Illinois Tort Immunity Act), 745 Ill. Comp. Stat 10/9–
102, directs local public entities to pay tort damages incurred by
employees acting with the scope of their employment. The statute
applies to federal as well as state law judgments.

3

35a
Summary judgment obviates the need for a trial
where there is no genuine issue as to any material fact
and the moving party is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a). A genuine issue of material fact exists if “the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248,
106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986). To determine
whether a genuine fact issue exists, the court must
pierce the pleadings and assess the proof as presented
in depositions, answers to interrogatories, admissions,
and affidavits that are part of the record. Fed. R. Civ.
P. 56(c). In doing so, the court must view the facts in
the light most favorable to the non–moving party and
draw all reasonable inferences in that party’s favor.
Scott v. Harris, 550 U.S. 372, 378, 127 S. Ct. 1769, 167 L.
Ed. 2d 686 (2007). The court may not weigh conflicting
evidence or make credibility determinations. Omnicare,
629 F.3d at 704.
The party seeking summary judgment bears the initial burden of proving there is no genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106
S. Ct. 2548, 91 L. Ed. 2d 265 (1986). In response, the
non–moving party cannot rest on bare pleadings alone
but must designate specific material facts showing that
there is a genuine issue for trial. Id. at 324; Insolia v.
Philip Morris Inc., 216 F.3d 596, 598 (7th Cir. 2000). If a
claim or defense is factually unsupported, it should be
disposed of on summary judgment. Celotex, 477 U.S. at
323– 24.
LOCAL RULE 56.1
Unless otherwise noted, the facts set out below are
taken from the parties’ Local Rule 56.1 statements and
are construed in the light most favorable to plaintiff.
The court will address many but not all of the facts in-

36a
cluded in the parties’ submissions, as the court is “not
bound to discuss in detail every single factual allegation
put forth at the summary judgment stage.” Omnicare,
Inc. v. UnitedHealth Grp., Inc., 629 F.3d 697, 704 (7th
Cir. 2011) (citation omitted). In accordance with regular
practice, it has considered the parties’ objections to the
statements of fact and includes in this background only
those portions of the statements and responses that are
appropriately supported and relevant to the resolution
of this motion. Any facts that are not controverted as
required by Local Rule 56.1 are deemed admitted.
Preparation of this opinion has been made particularly difficult by plaintiff’s counsel’s failure to comply with
Local Rule 56.1 in preparing and responding to statements of material facts. This court’s standing order directs counsel to read Malec v. Sanford, 191 F.R.D. 581
(N.D. Ill. 2000), before submitting summary judgment
filings. Although counsel are not new to federal court
litigation, they have apparently not recently reviewed
Malec, since their submissions are largely inconsistent
with the helpful guidance in the case: (1) a response to a
movant’s statement of facts is neither the place for argument nor additional facts that do not actually dispute
the factual statement; (2) “supporting documents submitted with a motion that are not referred to in the
statement of facts will be ignored”; (3) the paragraphs
in a statement of facts should be short and not argumentative or conclusory; (4) paragraphs also must contain specific references that support the factual allegation and the specific references provided should not be
so voluminous that they send the court on a wild goose
chase; and (5) the memorandum of law should cite back
to the statement of facts as opposed to record citations.
See id. at 583–86. Frankly, the motion could have been
granted by simply rejecting plaintiff’s Local Rule 56.1
submissions. The court has done its best, however, to

37a
winnow the facts to those supported by the record in
order that the case can be resolved on the merits.
BACKGROUND
Joseph McGreal was a full–time officer with OPPD
from January 10, 2005 until June 28, 2010, when his employment was terminated. (Dkt. 215–1 (Defendants’
Corrected Local Rule 56.1 Statement of Material Facts
(Defs.’ LR 56.1)) ¶ 1.) The events that form the basis for
the issues before the court run from August 2009
through McGreal’s termination approximately nine
months later. During that period, Timothy McCarthy
was OPPD’s Chief of Police; Thomas Kenealy was Patrol Division Commander; Patrick Duggan and James
Bianchi were lieutenants; Paul Grimes was Village
Manager.
During 2008, McGreal was elected secretary of the
Metropolitan Alliance of Police Local #159, the union
representing the Village’s police officers. (See Dkt. 220–
2, McGreal’s Local Rule 56.1 Statement of Additional
Facts (McGreal’s LR 56.1) ¶ 1; see also Defs.’ LR 56.1,
Ex. G1 (Dkt. 215–28) (McGreal to Kenealy, Step 1
Grievance #2010–06) at 1.) As a Local #159 member and
leader, McGreal claims to have engaged in representation of several officers in grievance matters and in advocacy for the collective bargaining rights of union
members. (McGreal to Kenealy, Step 1 Grievance
#2010–06 at 1.)
Although McGreal had in all previous performance
evaluations been favorably rated, at some point during
2009 conflict arose, leading to an “Interrogation” of
McGreal on January 21, 2010, regarding certain in-

38a
stances of conduct on the job. 4 The first incident of consequence to this litigation occurred on August 20, 2009,
and related to McGreal’s conduct regarding whether he
should represent another OPPD officer when that officer was lodging a complaint about a fellow officer. (See
McGreal to Kenealy, Step 1 Grievance #2010–06 at 10;
see also McGreal’s LR 56.1, Ex. 253 (Dkt. 220–20) at 25.)
The parties have not pointed the court to evidence that
any disciplinary investigation of the incident was initiated at that time. The next incident was an October 27,
2009 traffic stop of Charles Robson, which OPPD questioned as to whether the stop and follow–up paperwork
were done properly. OPPD undertook an investigation
of this incident on November 23, 2009. (See Defs.’ LR
56.1 ¶ 32; see also id. Ex. C–57 (Dkt. 215–13) at 18:22–
19:16; McGreal to Kenealy, Step 1 Grievance #2010–06
at 7; McGreal’s LR 56.1, Ex. 253 (Dkt. 220–20) at 6; id. ¶
16.)
Around the same time as the Robson stop, the Village made it publicly known that it was having financial
difficulties (McGreal’s LR 56.1 ¶ 7) and on November 2,
2009, it held a board meeting to discuss those difficulties
Defendants’ deny that McGreal’s past work record was favorable,
but McGreal’s statement is accepted as true for the purpose of the
motion. Defendants also contend, and McGreal contests, that this
and other examinations were formal interrogations as defined by
the Uniform Peace Officers Disciplinary Act. (See, e.g., Dkt. 220–3)
(McGreal’s Response to Defendant’s Corrected Local Rule 56.1
Statement of Material Facts (McGreal’s Resp. LR 56.1) ¶ 7.) While
the court will continue to use the word “interrogation” to refer to
these questioning sessions, it takes no position on whether the sessions themselves were formal interrogations as defined by that act.

4

39a
(id. ¶ 9). 5 McGreal attended that meeting on behalf of
Local #159 and presented written recommendations to
eliminate certain newly–created, non–essential positions, eliminate the take–home squad car program for
everyone but the Chief, Deputy Chief, and Investigations Lieutenant, and offer a new longevity benefit to
police officers. 6 (Id. ¶ 11; see also id., Ex. 74 (Dkt. 220–
16).) All of the individual defendants (McCarthy, Bianchi and Duggan) deny knowing that McGreal made this
presentation, and McGreal does not dispute their denial.
(Defs.’ LR 56.1 ¶ 23; McGreal’s Resp. LR 56.1 ¶ 23.)
In the days that followed the board meeting, three
more incidents occurred. On November 5, 2009,
McGreal was believed to have improperly run the license plate on Commander Kenealy’s personal vehicle.
(See McGreal’s LR 56.1, Ex. 253 at 31–33; McGreal to
Kenealy, Step 1 Grievance #2010–06 at 12–13.) On November 7, 2009, McGreal took part in a high–speed pursuit that his superiors considered unauthorized and
reckless. (See Defs.’ LR 56.1 ¶¶ 100–01.) McGreal participated in another pursuit on November 9, 2009, that
was similarly characterized by OPPD as unauthorized.
The previous day, McGreal received a midyear evaluation that
directed McGreal to “continue to maintain [his] current level of
activity during the rest of the rating period.” (McGreal’s LR 56.1 ¶
10.)

5

Defendants dispute that McGreal attended the board meeting.
(Dkt. 231) (Defendants’ Response to McGreal’s LR 56.1 Statement
of Additional Material Facts (Defs.’ Resp. LR 56.1) ¶ 11.) Their
citations, however, only dispute whether the individual defendants
(as well as the Village Manager) knew that McGreal attended and
presented at the meeting. (See id.)

6

40a
(Defs.’ Resp. LR 56.1 ¶ 20.) McGreal contends that his
conduct was not improper in either incident. (See
McGreal’s LR 56.1 ¶¶ 17, 20.)
At an unspecified time, these incidents became part
of an OPPD investigation of McGreal’s conduct which
entailed an interrogation of McGreal on January 21,
2010. (See Defs.’ LR 56.1, Ex. C–57 (Dkt 215–13).)
(There were other incidents subject to the investigation
but these are identified because they are most relevant
as they are closest in time to McGreal’s presentation to
the Village Board. 7)
On January 21and March 24, 2010, McGreal was
questioned regarding “each and every incident that ulThe incidents are not fully set forth in the parties’ statements of
facts, but those that were being considered prior to McGreal’s termination are included in OPPD’s June 2, 2010 statement of cause
for termination. (See McGreal’s LR 56.1, Ex. 253 (Dkt. 220–20).) In
total, the allegations consisted of (1) an improper traffic stop of
Charles Robson on October 27, 2009, (2) an insufficient case report
relating to that same event, (3) an unauthorized and reckless pursuit (the Alsip Pursuit), (4) an unauthorized and reckless pursuit
(the Forest Preserve Pursuit), (5) ostracizing an employee on the
OPPD’s November 24, 2009 Awards Night, (6) ostracizing that
same employee at that night’s roll call, (7) improperly calling in
sick, (8) improperly conducting himself during the representation
of another officer (the Zorbas complaint), (9) making a false report
of a superior, (10) leaving his beat and being idle while on duty, (11)
failing to report for a court appearance, (12) running the license
plate on Commander Kenealy’s personal vehicle, (13) reporting late
for duty, (14) lying at the January 21, 2010 interrogation, (15) interfering with the investigation of his conduct, and (16) failing to produce phone records as requested. McGreal disputed then and disputes in his additional statement of material facts whether these
incidents were properly handled. (See, e.g., McGreal’s LR 56.1 ¶¶
14–21, 25–27.) As explained below, whether OPPD handled them
correctly is not before this court.

7

41a
timately led to his termination.” (Id. ¶¶ 7, 9.) Prior to
each of these interrogations, the Village provided
McGreal with a written notice that identified the incidents that would be discussed. 8 (Id. ¶ 8, 9 Ex. C–57 at
Ex. 1 (Dkt. 215–16–17); Id., Ex. C–66 at Ex. 1 (Dkt. 215–
22).) These interrogations resulted in 195 pages of
sworn testimony from McGreal, in which he explained
his version of the incidents. (Id. ¶ 9.) While the transcripts of the interrogations indicate that McGreal was
represented by counsel, McGreal was not questioned by
his attorney. (See id., Ex. C–57 (Dkt. 215–13), Ex. C–66
(Dkt. 215–22).)
On April 21, 2010, Chief McCarthy provided
McGreal with written notice of a pre–disciplinary meeting that identified sixteen incidents about which the
OPPD was considering taking disciplinary action and
the specific department policy violated. (Id. ¶ 10; id.,
Ex. D. (Dkt. 215–24).) The meeting occurred a week later, on April 28, 2010, and prompted McGreal to file a
grievance that the meeting was an insufficient pre–
disciplinary meeting because he had not been given an
opportunity to review all of the evidence that the OPPD
had to support its charges. (Id. ¶¶ 12–13.)

McGreal disputes this paragraph of defendants’ statement of
facts, but his response is limited to stating additional information
that does not actually rebut defendants’ statement. (See McGreal’s
Resp. LR 56.1 ¶ 8.)

8

Before the second of these sessions, on March 5, 2010, McGreal
was placed on administrative leave. (Defs.’ LR. 56.1 ¶ 57.) McGreal
in this law suit challenges his termination, not being placed on administrative leave.

9

42a
In response to McGreal’s grievance, on June 2, 2010,
McGreal, Chief McCarthy, and Commander Kenealy
met to discuss the grievance. (Id.¶ 14.)10 During that
meeting, the three discussed the charges and the general nature of the OPPD’s evidence. (Id. ¶¶ 14–15.) 11
That same day, Chief McCarthy filed a statement of
charges before the Board of Fire and Police Commissioners, seeking McGreal’s termination. (McGreal’s LR
56.1 ¶ 39.) After being charged, McGreal filed a grievance with OPPD in which he referenced his November
2, 2009 presentation, set forth his version of the sixteen
incidents at issue, alleged violations by the OPPD of the
collective bargaining agreement, and requested that all
McGreal correctly points out that this meeting was not per se
another pre–disciplinary meeting but was rather step 2 in
McGreal’s grievance relating to the April 28, 2010 pre– disciplinary
meeting. (See McGreal’s Resp. LR 56.1 ¶ 14.) That said, this court
is less concerned with the formal title of the meeting and more concerned with its substance and documentation.

10

McGreal improperly disputes defendants’ summary of the meeting. (See McGreal’s Resp. LR. 56.1 ¶ 14–15.) In his responses to
these paragraphs of defendants’ statement of facts, McGreal cites
to a letter from his lawyer that preceded the meeting and additionally cites back to Chief McCarthy’s summary of the meeting and
states that parts of it are inaccurate. (Id.) He does not, however,
provide any citations to the record in support of his assertion that
the summary is inaccurate. (Id.) McGreal, likewise, raises no objections regarding the document’s admissibility. (See id.). Further,
even if McGreal had properly supported his dispute of these paragraphs, he still would have to address the fact that this summary,
which is an internal memorandum from Chief McCarthy to
McGreal, appears to have been received by McGreal on June 9,
2010. (See Defs.’ LR 56.1 ¶ 14, Ex. F.) Therefore, even if the types
of evidence were not discussed at the meeting, the memorandum
itself identified the types of evidence that OPPD intended to rely
on and would be admissible to show McGreal’s knowledge. (See id.)
11

43a
charges against him be dropped. (McGreal to Kenealy,
Step 1 Grievance #2010–06.) Kenealy responded in writing, denying McGreal’s grievance. (Defs.’ LR 56.1, Ex.
G–1 (Dkt. 215–29).)
McGreal then advanced his grievance to step 2, and
Chief McCarthy and Commander Kenealy met again
with McGreal. (Id. ¶¶ 20–21.) Chief McCarthy again denied the grievance. (Id., Ex. G1 (Dkt. 215–30), McCarthy to McGreal, Step 2 Grievance #2010–06.) Meanwhile, McGreal elected to submit the charges against
him to arbitration instead of proceeding with a hearing
before the Board of Fire and Police Commissioners.
(McGreal’s LR 56.1 ¶ 40.) On June 28, 2010, McGreal
was terminated, following the approvals of Chief
McCarthy and Village Manager Grimes. 12 (Id.)
Thereafter, McGreal sought other work, and OPPD
provided information to prospective employers authorized by releases given by McGreal to the OPPD. (Defs.’
LR 56.1 ¶ 109.) McGreal knows of no information provided to these prospective employers other than as authorized in his releases. (Id. ¶ 111.)
ANALYSIS
I. Section 1983 Claims (Counts I–IV)
In order to prevail on a § 1983 claim, a plaintiff must
establish that the defendant deprived him of a right secured by the Constitution or laws of the United States
There is some ambiguity in the testimony cited by the parties as
to who made the final decision to terminate McGreal. In any event,
defendants assert and McGreal does not dispute, that “the Village
Manager is the final policy maker with respect to employment decisions.” (Defs.’ LR 56.1 ¶ 107; McGreal’s Resp. LR 56.1 ¶ 107.)
12

44a
and that the defendant acted under color of state law.
Brokaw v. Mercer Cty., 235 F.3d 1000, 1009 (7th Cir.
2000) (citations omitted). McGreal alleges that defendant state actors violated his Fourteenth Amendment
right to procedural due process and his First Amendment rights to freedom of speech and association.
A. Fourteenth Amendment § 1983 Claims
(Counts I, IV)
To establish a claim for violation of procedural due
process under the Fourteenth Amendment, a plaintiff
must prove “(1) deprivation of a protected interest, and
(2) insufficient procedural protections surrounding that
deprivation.” Michalowicz v. Vill. of Bedford Park, 528
F.3d 530, 534 (7th Cir. 2008). Concerning (2), “[t]he fundamental requirement of due process is the opportunity
to be heard –at a meaningful time and in a meaningful
matter.’ +” Mathews v. Eldridge, 424 U.S. 319, 333, 96
S. Ct. 893, 47 L. Ed. 2d 18 (1976) (quoting Armstrong v.
Manzo, 380 U.S. 545, 552, 85 S. Ct. 1187, 1191, 14 L. Ed.
2d 62 (1965)). “[A] –procedure required by contract,
statute, or regulation does not create a constitutionally
protected right nor does violation of a contract, statute,
or regulation, by itself, constitute a violation of due process.’ +” Harris v. City of Chicago, 665 F. Supp. 2d 935,
951 (N.D. Ill. 2009) (quoting Fenje v. Feld, 301 F. Supp.
2d 781, 802 (N.D. Ill. 2003)). Rather, the right is “flexible, requiring different procedural protections depending upon the situation at hand.” Doyle v. Camelot Care
Ctrs., Inc., 305 F.3d 603, 618 (7th Cir. 2002).
Defendants agree that McGreal had a “protected interest” in his employment with OPPD, but they contend
that there is no genuine issue of material fact that
McGreal received all the pre–termination process that

45a
was due, and more. 13 In response (see Dkt. 220–1 at 19–
25), McGreal does not clearly articulate a theory but it
seems to be that Chief McCarthy imposed discipline (in
this case termination) once McGreal asked for arbitration and before a “fair hearing” occurred, 14 arguing that
this practice is contrary to the collective bargaining
agreement and the Orland Park Municipal Code. In due
process terms, he seems to be asserting that McCarthy
as a final policy maker denied him due process on the
basis that he terminated McGreal’s employment before
the arbitrator decided his case. 15 Under this theory, a
full–blown arbitration hearing (or police board hearing)
was necessary in order to comport with due process.
This reflects a fundamental misunderstanding of the
due process clause. As indicated above, whether a state
or local code or a collective bargaining agreement was
violated is immaterial to one’s claimed denial of a pre–
termination hearing consistent with due process, so the
This court previously dismissed McGreal’s procedural due process claim to the extent that it was based on the post–deprivation
procedures. (Dkt. 77 at 13–16.)

13

McGreal relies on provisions of the Village’s Municipal Code and
the collective bargaining agreement to define his due process
rights. The referenced ordinance allows a Chief of Police to suspend an officer up to thirty days without pay. The collective bargaining agreement permits discipline, including discharge, to be
imposed only for just cause and requires that, before a decision to
impose or recommend discipline, including discharge, the Chief of
Police is to notify the union and meet with the employee involved
(and a representative if requested), inform the employee of the
reasons for the contemplated action, and give the employee the
opportunity to informally discuss, rebut or clarify the reasons for
the action. (See Dkt. 220–1 at 21.)
14

Although cast as a Monell claim, there is no evidence of policy
and practice other than McGreal’s ipse dixit.

15

46a
court will address the issue of whether McGreal received the pre–termination process that was due.
A pre–deprivation hearing need not be a full–blown
hearing where adequate post–termination proceedings
exist. See Cleveland Bd. of Educ. v. Loudermill, 470
U.S. 532, 546, 105 S. Ct. 1487, 84 L. Ed. 2d 494 (1985);
Chaney v. Suburban Bus Div. of Reg’l Transp. Auth.,
52 F.3d 623, 628 (7th Cir. 1995). The case law refers to
such a hearing as “truncated,” and even the word hearing is perhaps a misnomer, since the notice and opportunity to be heard may be oral or written. See Hudson
v. City of Chicago, 374 F.3d 554, 563 (7th Cir. 2004)
(noting that the plaintiff’s opportunity to respond conformed with due process when he was given the chance
to submit a memorandum to contest the charges against
him). “In its truncated form, –pretermination process
need only include oral or written notice of the charges,
an explanation of the employer’s evidence, and an opportunity for the employee to tell his side of the story.’
+” Michalowicz, 528 F.3d at 537 (quoting Gilbert v.
Homar, 520 U.S. 924, 929, 117 S. Ct. 1801, 138 L. Ed. 2d
120 (1997)). If McGreal has been afforded each of these
three steps, then he has received all of the process due.
The doctrine makes it clear that, whatever the more
comprehensive hearing rights McGreal may have had
under the collective bargaining agreement or the Village Code, all that was constitutionally required was
provided to McGreal. As far as the court can discern, on
April 21, 2010, he was notified of the contemplated termination, the reasons for it, and that he was to appear
for a hearing on April 28, 2010, to discuss the specific
bases OPPD relied on for its planned action. McGreal
attended the meeting and, dissatisfied, asked for more
documentation. Chief McCarthy arranged another
meeting on June 2, at which time at least some of the

47a
evidence on which OPPD intended to rely at an anticipated hearing before the Board of Police and Fire
Commissioners was shown to him and discussed. 16 On
June 10, McGreal filed a grievance in which he contested each and every one of the charges and asked for the
charges to be dismissed against him. Commander
Kenealy considered this request and rejected it.
McGreal appealed that decision to Chief McCarthy, who
again rejected the request. In sum, McGreal was provided with notice of the reasons for his termination, an
explanation of the evidence supporting it, and an opportunity to tell his side, all before he claims to have been
terminated on June 21, 2010. This is undoubtedly consistent with the requirements of pre–deprivation procedural due process.
Accordingly, defendants are granted summary
judgment on counts I and IV.

16
The procedure in place for termination of Orland Park police officers is not clear from the parties’ submissions. Presumably, they
are explicit within the collective bargaining agreement and Illinois
municipal law and rules of the Board of Police and Fire Commissioners. The court infers from the record that the Board had the
final authority to terminate McGreal, subject to administrative
review. Alternatively, however, the collective bargaining agreement must have permitted an officer to submit the proposed termination to arbitration, as that is what McGreal did. It is implied
that the termination occurred (presumably once McGreal was no
longer on the payroll) by the end of June, possibly once he elected
arbitration, such that the arbitration was within the realm of
“post–termination procedure” for purposes of the due process
clause. There is no basis in the due process clause for the argument
that OPPD had to keep him employed pending a final determination

48a
B. First Amendment § 1983 Claims (Counts
II, III)
McGreal asserts that defendants violated his constitutional rights by punishing him for exercising his First
Amendment rights when he presented written suggestions to the Village Board on November 2, 2009. (Dkt.
220–1 at 8.) To survive summary judgment on a First
Amendment punishment claim, a plaintiff must demonstrate that “(1) his speech was constitutionally protected; (2) he has suffered a deprivation likely to deter free
speech; and (3) his speech was at least a motivating factor in the employer’s actions.” Kidwell v. Eisenhauer,
679 F.3d 957, 964 (7th Cir. 2012) (citing Massey v. Johnson, 457 F.3d 711, 716 (7th Cir. 2006)); see also Hawkins
v. Mitchell, 756 F.3d 983, 996 (7th Cir. 2014); Peele v.
Burch, 722 F.3d 956, 959 (7th Cir. 2013). Only the third
element is at issue, as defendants concede that McGreal
engaged in protected speech and that discharge from
employment is likely to deter free speech.
In Greene v. Doruff, the Seventh Circuit set forth
the standard for analyzing causation:
[A] plaintiff need only show that a violation of
his First Amendment rights was a “motivating
factor” of the harm he’s complaining of, and that
if he shows this the burden shifts to the defendant to show that the harm would have occurred
anyway— that is, even if there hadn’t been a violation of the First Amendment—and thus that
the violation had not been a “but for” cause of
the harm for which he is seeking redress.
660 F.3d 975, 977 (7th Cir. 2011); see also Kidwell,
679 F.3d at 964–65; Hawkins, 756 F.3d at 996 n.10;

49a
Peele, 722 F.3d at 960. 17 McGreal may establish causation through either direct or circumstantial evidence.
“Importantly, regardless of which type of evidence is
offered, [t]o demonstrate the requisite causal connection in a retaliation claim, [a] plaintiff[ ] must show that
the protected activity and the adverse action are not
wholly unrelated.” Kidwell, 679 F.3d at 965 (alterations
in original) (internal quotation marks and citations
omitted).
The individual defendants all deny knowing of
McGreal’s protected speech. McGreal does not dispute
this denial. “[T]o establish that a defendant retaliated
against a plaintiff because of a protected constitutional
right, a plaintiff must demonstrate that the defendant
knew of the retaliation and knew of the plaintiff’s constitutional activities.” Stagman v. Ryan, 176 F.3d 986,
999 (7th Cir. 1999); see also O’Connor v. Chicago Transit Auth., 985 F.2d 1362, 1370 (7th Cir. 1993) (“Allegedly
protected speech cannot be proven to motivate retaliation, if there is no evidence that the defendants knew of
the protected speech.”); Malec, 191 F.R.D. at 589 (“Because [the plaintiff] has produced no evidence that these
defendants knew about his allegedly protected activities, he cannot, as a matter of law, establish a triable
issue of a First Amendment violation …”).
In certain formulations, the Seventh Circuit has also noted that if
the defendant shows that the harm would have occurred anyhow,
the burden shifts back to the plaintiff to show that the proffered
reason was pretextual. See Thayer v. Chiczewski, 705 F.3d 237,
251–52 (7th Cir. 2012); see also Hawkins, 756 F.3d at 996 n.10.
Similarly, the Seventh Circuit has also articulated the causation
factor as requiring a plaintiff to show that “her protected speech
was a but–for cause of the employer’s action.” Diadenko v. Folino,
741 F.3d 751, 755 (7th Cir. 2013).

17

50a
McGreal relies on circumstantial evidence of suspicious timing to rebut the defendants’ showing. In that
context, the Seventh Circuit has explained that
“[c]ircumstantial evidence may include suspicious timing, ambiguous oral or written statements, or behavior
towards or comments directed at other employees in
the protected group....[S]uspicious timing will rarely be
sufficient in and of itself to create a triable issue” because “the timing may be just that—suspicious—and a
suspicion is not enough to get past a motion for summary judgment.” Kidwell, 679 F.3d at 966 (citations and
internal quotation marks omitted). At a minimum, for
suspicious timing to support an inference of causation,
the adverse employment action must follow “close on
the heels of protected expression, and the plaintiff
[must] show that the person who decided to impose the
adverse action knew of the protected conduct.” Id.
(quoting Lalvani v. Cook Cty., 269 F.3d 785, 790 (7th
Cir. 2001)) (alteration in original).
Applied to McGreal’s First Amendment claim these
principles demonstrate that, because McGreal cannot
show that the defendants knew of the protected speech
until after McCarthy initiated disciplinary investigations that led to the discharge, 18 he cannot survive
summary judgment based on suspicious timing. To the
extent McGreal contends that circumstantial evidence
can also be found in evidence that the OPPD disciplined
him more severely than others who committed the same
At some point McCarthy must have become aware that McGreal
engaged in protected speech, since McGreal included it within his
grievances. There is no evidence, however, that McCarthy had any
indication of McGreal’s speech until McGreal himself brought it to
his attention as a reason for why McGreal believed he was already
being unfairly treated.
18

51a
transgressions, he fails to support his assertions with
the record, 19 and his legal authority supports general
propositions of law without an analysis of the facts of
this case. See Malec, 191 F.R.D. at 586 (“A legal standard, even if correct, is useless to us unless applied to the
facts of the case, particularly if it is a broad legal standard....”). 20 McGreal cites law arising in the context of retaliation under Title VII, but even there he has proffered no evidence of ambiguous oral or written statements or comments directed at him or other employees
that would suggest that hostility to his union activities
was a motivating factor. See Harden v. Marion Cty.
Sheriff’s Dept., 799 F.3d 857, 862–63 (7th Cir. 2015)
(concerning retaliation under Title VII).
To find in his favor, a jury would have to infer that
McGreal, who had represented union members in grievance matters for a significant period in the past without
McGreal’s unsigned affidavit provides only minimal foundation
for a spreadsheet on which he relies for this argument. The spreadsheet, however, even if received in evidence, does not identify a
similarly situated officer or show unequal treatment for equal
transgressions. Cf. Harris v. City of Chicago, 665 F. Supp. 2d 935,
956 (N.D. Ill. 2009) (“Statistical evidence is only helpful when the
plaintiff faithfully compares one apple to another.”).
19

20

McGreal also makes two other generalized arguments, which
can be swiftly dispatched. First, he argues that the outcome of the
investigation was predetermined. His proffered support for this
argument, however, is that the investigation of his hostile work
environment grievance was predetermined, not the OPPD’s investigation of his conduct as a police officer. Second, McGreal argues
that the investigation was ludicrous and discusses the Charles
Robson traffic stop; however, his argument is not adequately supported by his citations and merely shows that he disagrees with
OPPD.

52a
consequence from OPPD and who had attended Village
meetings in the past on behalf of the union without consequence, nevertheless faced retaliation after he appeared at the November 2009 meeting with a proposal
that seems to have been at least largely, if not entirely,
rejected by the Village Board, setting into motion the
subterfuge of an elaborate, lengthy investigation of his
on–the–job conduct, culminating months later in a notice of contemplated termination. On these facts a reasonable jury could not find that McGreal’s protected
speech was a but–for reason for his termination.
While McGreal disputes that he was properly disciplined or that he committed some of the alleged conduct, he does not present evidence other than his own
opinion that suggests that defendants did not believe
the reasons they gave for McGreal’s termination. It is
not this court’s job “to second–guess the employer’s decision” but rather to determine whether defendants
terminated McGreal because of his protected speech.
Stagman, 176 F.3d at 1002; see also Kidwell, 679 F.3d at
969 (“[W]e look for pretext in the form of a dishonest
explanation, a lie rather than an oddity or an error.” (internal quotation marks and citations omitted)). On the
record before the court, McGreal’s assertions that defendants terminated McGreal because of his protected
speech are purely speculative. Speculation is not sufficient to survive summary judgment.
Accordingly, defendants are granted summary
judgment on counts II and III.
II. Tortious Interference with Advantageous
Business Relations (Count V)
To state a claim for tortious interference with advantageous business relations, McGreal must allege “(1) a
reasonable expectation of entering into a valid business
relationship, (2) the defendant’s knowledge of the ex-

53a
pectation, (3) purposeful interference by the defendant
that prevents the plaintiff’s legitimate expectancy from
ripening into a valid business relationship, and (4) damage to the plaintiff resulting from the defendant’s interference.” Atanus v. Am. Airlines, Inc., 932 N.E. 2d
1044, 1048, 403 Ill. App. 3d 549, 342 Ill. Dec. 583 (1st
Dist. 2010).
Defendants have offered evidence that the only documents that they provided to potential employers were
those that were provided pursuant to a release of liability. McGreal does not contest this factual statement and
completely abandons any discussion of this claim in his
brief. Since McGreal has provided no evidence in support of his claim, this court is compelled to grant summary judgment to defendants.
Accordingly, defendants are granted summary
judgment on count V.
III. Intentional Infliction of Emotional Distress
(Counts VIII)
To establish an intentional infliction of emotional distress claim under Illinois law, McGreal must show that
“(1) the defendants’ conduct was extreme and outrageous; (2) the defendants knew that there was a high
probability that their conduct would cause severe emotional distress; and (3) the conduct in fact caused severe
emotional distress.” Swearnigen–El v. Cook Cty. Sheriff’s Dep’t, 602 F.3d 852, 863–64 (7th Cir. 2010) (citing
Kolegas v. Heftel Broad. Corp., 607 N.E.2d 201, 211, 154
Ill. 2d 1, 180 Ill. Dec. 307 (1992)). “To meet the –extreme
and outrageous’ standard, the defendants’ conduct –
must be so extreme as to go beyond all possible bounds
of decency, and to be regarded as intolerable in a civilized community.’ +” Id. at 864 (quoting Kolegas, 607
N.E.2d at 211). While McGreal does address this claim
in his brief, he does not do much more than state that he

54a
“has ample evidence to establish his” claim. (Dkt. 220–1
at 25.) Nowhere in McGreal’s statement of facts does he
support the elements of this claim, including providing
any factual support for his assertion of severe emotional
distress.
Accordingly, defendants are granted summary
judgment on count VIII.
IV. Respondeat Superior And Indemnification
Under Illinois Law (Counts VI, VII)
Neither McGreal’s respondeat superior nor indemnification counts provide an independent basis for liability. Since this court has granted summary judgment to
defendants on all of McGreal’s other counts, summary
judgment is proper for these counts as well.
Accordingly, defendants are granted summary
judgment on counts VI and VII.
CONCLUSION AND ORDER
For the foregoing reasons, defendants’ motion for
summary judgment (Dkt. 202) is granted, and the case
is dismissed in its entirety.
Date: April 15, 2016
/s/ Joan H. Lefkow
U.S. District Judge

55a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
_________________
No. 16-2365
Joseph S. McGreal,

Plaintiff,

v.
Village of Orland Park, et al.,
Defendants-Appellees.
Filed: March 6, 2017
_________________
Before MANNION, KANNE, and HAMILTON,
Circuit Judges.
Kanne, Circuit Judge. On June 28, 2010, Joseph
McGreal was fired from his position as a police officer
with the Orland Park Police Department. Thereafter,
he sued the Village of Orland Park and three members
of the police department—Chief of Police Timothy
McCarthy, Lieutenant Patrick Duggan, and Lieutenant
James Bianchi—claiming that the defendants violated
his First Amendment rights by firing him in retaliation
for his exercise of protected speech at a community
board meeting. He also brought a state-law intentionalinfliction-of-emotional-distress claim. The defendants
filed a motion for summary judgment, which the district
court granted.
This appeal ultimately comes down to evidence, or
perhaps more appropriately, a lack of it. Because
McGreal has offered no admissible evidence showing
that he is entitled to relief, the district court properly
dismissed his claims.

56a
I. BACKGROUND
McGreal began working as a police officer in the Village of Orland Park on January 10, 2005. Early in his
career, McGreal performed competently: he received
positive reviews on his performance evaluations and
was nominated for various commendations and other
honors. But conflict between McGreal and the police
department arose in 2009, which culminated in
McGreal’s firing on June 28, 2010.
McGreal alleges that he was fired because of his exercise of protected speech at a village board meeting
held on November 2, 2009. The village had called that
meeting to discuss options to address an anticipated
budgetary shortfall. One of the cost-saving options that
the village proposed involved laying off as many as seven full-time police officers. McGreal, who had been
elected secretary of the local police union in 2008, contends that he attended the meeting on behalf of the union. There, he allegedly presented three alternative solutions, none of which required the laying off of any fulltime officers: (1) eliminating certain newly-created, nonessential positions; (2) eliminating the take-home squadcar program for certain lieutenant positions; and (3)
creating a new longevity-benefit program that would
allow eligible officers to take early retirement. McGreal
contends that those solutions, which protected lowerlevel police officers at the expense of their superiors,
drew the ire of the defendants. According to McGreal,
the defendants then retaliated against him because of
his speech by accusing, interrogating, and ultimately
firing him under the pretext of unsubstantiated violations of department policy.
The defendants, on the other hand, deny knowing
that McGreal engaged in any protected speech or even
attended the November 2 board meeting. Instead, they

57a
argue that McGreal was legitimately fired because of a
series of incidents that occurred in late 2009 and early
2010, none of which involved any protected speech.
The first incident occurred on October 27, 2009. That
evening, McGreal conducted a traffic stop of a man
named Charles Robson, which McGreal’s in-squad video
camera recorded. Because McGreal turned his microphone off shortly after placing Robson in handcuffs, the
police department questioned whether the stop had
been performed properly. The defendants also allege
that McGreal initially refused to write a report for the
stop and even lied under oath about what occurred during the stop. The department conducted an investigation of the stop and its aftermath on November 23, 2009.
The defendants next contend that McGreal committed several acts of misconduct shortly after the November 2 board meeting. These included two unauthorized,
unnecessary, and dangerous high-speed chases. The defendants also point to McGreal’s behavior at an awards
banquet on November 24, 2009, during which McGreal
allegedly ostracized a fellow officer who had been honored as the Officer of the Year. The defendants further
allege that McGreal continued this inappropriate behavior during his shift that same evening after the banquet.
Because of these and other incidents, the department interrogated McGreal on January 21, 2010. Specifically, they questioned McGreal under oath about his
actions during the Robson traffic stop, the awards ceremony, and his shift immediately following the awards
ceremony. The defendants allege that McGreal lied during the interrogation about each of those incidents. Afterward, the defendants contend that McGreal committed several additional acts of misconduct, including one
instance of reckless driving while off duty.

58a
On March 5, 2010, the department placed McGreal
on paid administrative leave. McGreal’s misconduct
continued after this date. The written order placing
McGreal on leave included a no-contact clause, which
ordered McGreal “to have no contact or discussion of
any kind with any member of this department, citizen
or complainant regarding these investigations.” (R. 21523 at 1.) According to the defendants, McGreal violated
the no-contact clause on at least two occasions. The department interrogated McGreal again on March 24,
2010. There, the defendants allege that McGreal again
lied under oath, claiming that he never contacted anyone in the department about his case. The department
ordered him to provide his phone records to verify his
testimony, but McGreal refused, claiming that he was
not an authorized user on his telephone account and
could not obtain the records. The department then obtained the records by subpoena, which revealed that
McGreal had in fact contacted at least two officers. The
records also showed that, on the same day the department had asked him to provide his phone records,
McGreal had removed his name as an authorized user
on the account in an apparent effort to obstruct the department’s investigation.
On April 21, 2010, the department presented
McGreal with a “summarized list of reasons for contemplated disciplinary action,” which charged McGreal with
a total of sixteen acts of misconduct. (R. 215-24 at 2.)
After meeting with McGreal, Chief McCarthy filed a
statement of charges with the Board of Fire and Police
Commissioners. (R. 220-20.) McGreal was then fired on
June 28, 2010.
McGreal contested his termination through arbitration. After meeting with the parties seventeen times
over a fourteen-month period, the arbitrator sustained

59a
McGreal’s termination on November 14, 2012. McGreal
unsuccessfully appealed the arbitrator’s decision in the
Appellate Court of Illinois. McGreal v. Village of Orland Park, No. 1-14-1412, 2015 WL 256529 (Ill. App. Ct.
Jan. 20, 2015); McGreal v. Ill. Labor Relations Bd. State
Panel, No. 1-13-3634, 2014 WL 7176785 (Ill. App. Ct.
Dec. 16, 2014).
On June 27, 2012, McGreal filed this lawsuit under 42
U.S.C. § 1983 against the defendants in the Northern
District of Illinois. In his complaint, McGreal alleged
various constitutional and state-law claims surrounding
his termination including: (1) a violation of due process
under the Fourteenth Amendment, (2) retaliation in violation of the First Amendment, (3) a Monell claim
against the Village of Orland Park and the police department, (4) tortious interference with advantageous
business relations, and (5) intentional infliction of emotional distress. He further alleged that the village was
liable under respondeat superior and indemnification
theories.
The defendants filed a motion to dismiss, which the
district court granted in part and denied in part on August 2, 2013. In particular, the district court dismissed
all claims against the individual defendants in their official capacities, limited McGreal’s § 1983 claims to alleged violations that occurred on or after June 28, 2010,
and dismissed certain claims that were related to the
arbitration hearing or that should have been filed with
the Illinois Labor Relations Board. The defendants then
filed a motion for summary judgment, which the district
court granted in its entirety on April 15, 2016. The district court denied McGreal’s motion for reconsideration
on May 24, 2016. This appeal followed.

60a
II. ANALYSIS
We review de novo a district court’s grant of summary judgment, construing all facts and reasonable inferences in favor of the nonmoving party. Tapley v.
Chambers, 840 F.3d 370, 376 (7th Cir. 2016). Summary
judgment is proper when “the admissible evidence
shows that there is no genuine issue as to any material
fact and that the moving party is entitled to judgment
as a matter of law.” Id. (quoting Hanover Ins. Co. v. N.
Bldg. Co., 751 F.3d 788, 791 (7th Cir. 2014)).
On appeal, McGreal contests only the district court’s
dismissal of his First Amendment and intentionalinfliction-of-emotional-distress claims. Our review is
thus limited to those claims. See e.g., United States v.
Beavers, 756 F.3d 1044, 1059 (7th Cir. 2014) (treating as
waived arguments that an appellant did not raise in his
opening brief). We begin with his First Amendment
claim and then turn to his intentional-infliction-ofemotional-distress claim.
A. First Amendment Retaliation

McGreal first argues that the defendants violated his
First Amendment rights by firing him in retaliation for
his speech at the November 2 board meeting. To prevail
on this claim, McGreal must show that “(1) he engaged
in activity protected by the First Amendment; (2) he
suffered a deprivation that would likely deter First
Amendment activity in the future; and (3) the First
Amendment activity was at least a motivating factor in
the defendants’ decision to take the retaliatory action.”
Perez v. Fenoglio, 792 F.3d 768, 783 (7th Cir. 2015)
(quoting Bridges v. Gilbert, 557 F.3d 541, 546 (7th Cir.
2009)). The defendants dispute only the third element—
in short, causation—arguing that McGreal’s termination
had nothing to do with his speech.

61a
At summary judgment in First Amendment retaliation cases, the burden of proof for causation is divided
and shifts between the parties. Kidwell v. Eisenhauer,
679 F.3d 957, 965 (7th Cir. 2012). First, the plaintiff
must produce evidence that his speech was “at least a
motivating factor—or, in philosophical terms, a ‘sufficient condition’—of the employer’s decision to take retaliatory action against him.” Id. (quoting Greene v.
Doruff, 660 F.3d 975, 979–80 (7th Cir. 2011)). If the
plaintiff makes this initial showing, the burden then
“shifts to the employer to rebut the causal inference.”
Id. The employer can meet its burden by offering an alternative explanation for the firing, showing that its decision to terminate the plaintiff “would have been made
in the absence of the protected speech.” Thayer v.
Chiczewski, 705 F.3d 237, 252 (7th Cir. 2012). If the employer successfully rebuts the causal inference, the burden shifts back to the plaintiff to “demonstrate that the
[employer’s] proffered reason was pretextual and that
the real reason was retaliatory animus.” Id.
Here, McGreal fails at both steps one and three in
this burden-shifting analysis. First, he has provided no
admissible evidence that his speech was a motivating
factor of the defendants’ decision to fire him. Second,
even if he had made that initial showing and shifted the
burden back to the defendants, McGreal has provided
no admissible evidence that the defendants’ alternative
explanations for his firing were pretextual. See
Swearnigen-El v. Cook Cnty. Sheriff’s Dept., 602 F.3d
852, 861–63 (7th Cir. 2010) (analyzing both steps).
1. McGreal’s Speech as a Motivating Factor

To show that his firing was motivated by his protected speech, McGreal must first demonstrate that the defendants knew of the protected speech. “Allegedly protected speech cannot be proven to motivate retaliation,

62a
if there is no evidence that the defendants knew of the
protected speech.” Stagman v. Ryan, 176 F.3d 986, 999–
1000 (7th Cir. 1999) (citation omitted). McGreal argues
that the defendants retaliated against him because of
his speech at the November 2 board meeting. To survive summary judgment, he thus has to provide admissible evidence that the defendants were aware of that
speech before they initiated disciplinary proceedings.
McGreal has not met his burden: none of the “many
documents” he references actually show that the defendants were aware of his speech. (Appellant’s Br. at
29.) The first few documents McGreal cites—a memorandum written by the village manager to “All Village
Employees” (R. 220-15 at 24) and an email from the union president to the union’s members (R. 220-15 at 25)—
were actually created weeks before the November 2
meeting and thus could not have provided the defendants with knowledge of who attended the meeting or
what the meeting’s attendees discussed. Other documents McGreal references—a letter from the village
manager to the union president (R. 220-17 at 20) and an
email from the union president to the village manager
(R. 220-16 at 14)—do not address the November 2 meeting at all.
The deposition testimony that McGreal cites also
doesn’t show that the defendants knew of McGreal’s
speech. Although Chief McCarthy admitted during his
deposition that he was aware that McGreal had met
with the mayor and other board members on October
26, McCarthy did not testify that he knew McGreal attended or engaged in protected speech at the November 2 meeting. (R. 220-9 at 26.) Because McGreal has
provided no evidence that the defendants knew of his
speech, he has failed to show that his speech was a mo-

63a
tivating factor of the defendants’ decision to fire him.
Stagman, 176 F.3d at 999–1000.
2. The Defendants’ Alternative Explanations

Had McGreal made the initial showing that the defendants were aware of his protected speech and that
his speech was a motivating factor in his firing, the burden would have shifted to the defendants to provide a
legitimate and nonretaliatory explanation for the firing.
But because the defendants provided several alternative explanations for McGreal’s firing—that he (1) lied
under oath during several formal interrogations, (2)
committed numerous acts of insubordination, and (3)
engaged in reckless conduct while on duty—the burden
would have again shifted back to McGreal to show that
these explanations were pretextual. See Thayer, 705
F.3d at 252. To show pretext and to survive summary
judgment, McGreal must “produce evidence upon which
a rational finder of fact could infer that the defendant[s’] proffered reason[s] [are] lie[s].” Zellner v. Herrick, 639 F.3d 371, 379 (7th Cir. 2011).
Again, McGreal has failed to meet his burden: he has
offered no admissible evidence to show that the defendants’ nonretaliatory explanations for his firing were anything but true. Although he does cite a few documents
to bolster his pretext argument, none of these are sufficient to withstand summary judgment. For instance, he
cites his own unsigned affidavit (R. 220-14), his Second
Amended Complaint (R. 89 at ¶ 14), his statement of
undisputed material facts (R. 220-2 at ¶¶ 39, 41), and a
spreadsheet that he created based largely on his own
experiences (R. 220-21 at 45–47). He also tries to bolster
his argument with irrelevant citations to portions of the
record that have nothing to do with his firing. In short,
the documents he references are not admissible evi-

64a
dence showing that the defendants’ explanations are
pretextual.
McGreal also largely relies on the suspicious timing
of events to show pretext. But as we have repeatedly
held, suspicious “timing alone does not create a genuine
issue as to pretext if the plaintiff is unable to prove,
through other circumstantial evidence, that he was
terminated for a reason other than that proffered by
the employer.” Pugh v. City Of Attica, 259 F.3d 619, 629
(7th Cir. 2001). “The reason is obvious: ‘[s]uspicious timing may be just that—suspicious—and a suspicion is not
enough to get past a motion for summary judgment.’ ”
Kidwell, 679 F.3d at 966 (quoting Loudermilk v. Best
Pallet Co., 636 F.3d 312, 315 (7th Cir. 2011)). Because
McGreal has cited no evidence apart from suspicious
timing that the defendants’ alternative explanations are
untrue, he has failed to meet his burden. The district
court thus did not err in granting the defendants’ motion for summary judgment as to McGreal’s First
Amendment retaliation claim.
B. Intentional Infliction of Emotional Distress

McGreal next argues that the defendants’ conduct
amounted to an intentional infliction of emotional distress. To prevail on this claim under Illinois law,
McGreal must show that (1) the defendants engaged in
“extreme and outrageous” conduct; (2) the defendants
“either intended that [their] conduct would inflict severe emotional distress, or knew there was a high probability that [their] conduct would cause severe emotional distress”; and (3) the defendants’ “conduct in fact
caused severe emotional distress.” Zoretic v. Darge, 832
F.3d 639, 645 (7th Cir. 2016) (citing Doe v. Calumet
City, 161 Ill.2d 374, 204 Ill.Dec. 274, 641 N.E.2d 498, 506
(1994)).

65a
McGreal has offered absolutely no evidence that the
defendants’ conduct was extreme or outrageous or that
their conduct caused him severe emotional distress. To
the contrary, in his own brief, McGreal admits that the
“severity” of his emotional distress was “probably of
the garden variety.” (Appellant’s Br. at 53.) “The law
intervenes only where the distress inflicted is so severe
that no reasonable man could be expected to endure it.”
McGrath v. Fahey, 126 Ill.2d 78, 127 Ill.Dec. 724, 533
N.E.2d 806, 809 (1988) (quoting Restatement (Second)
of Torts § 46, cmt. j (1965)). Garden-variety emotional
distress is insufficient to meet that standard. The district court did not err in granting the defendants’ motion for summary judgment as to McGreal’s intentionalinfliction-of-emotional-distress claim.
III. CONCLUSION
For the foregoing reasons, the district court’s grant
of the defendants’ motion for summary judgment is
AFFIRMED.

66a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
_________________
No. 12-cv-5135
Joseph S. McGreal,
v.
Village of Orland Park, et al.,
___________

Plaintiff,
Defendants.

OPINION AND ORDER
On April 15, 2016, the court entered summary judgment on all of Joseph S. McGreal’s claims in favor of the
Village of Orland Park, Illinois, and individual officials
of the Village’s police department. (Dkt. 239.) The
judgment was affirmed on March 6, 2017 (Dkt. 275; see
also McGreal v. Village of Orland Park, 850 F.3d 308
(7th Cir. 2017)) and rehearing was denied. Defendants
seek an award of their attorneys’ fees under the feeshifting doctrines underlying 42 U.S.C. § 1988 on the
basis that McGreal’s claims were without foundation
and his counsel had more than enough information to
determine that before the lawsuit was filed. They also
seek Rule 11 sanctions for McGreal’s counsel’s filing of a
meritless opposition to their motion for summary judgment.
“[A] district court may award attorney’s fees to a
prevailing defendant [under § 1988] upon a finding that
the plaintiff’s action was frivolous, unreasonable or
without foundation, even though the action was not
brought in subjective bad faith.” Munson v. Friske, 754

67a
F.2d 683, 696 & n.9 (7th Cir. 1985) (citing Christiansburg Garment Co. v. Equal Employment Opportunity
Comm’n, 434 U.S. 412, 421, 98 S. Ct. 694, 54 L. Ed. 2d
648 (1978)). The court must not award fees simply because the plaintiff lost, and it must consider the “course
of litigation” in assessing the issue. See Christiansburg
Garment Co., 434 U.S. at 421–22. 1 “Hence, a plaintiff
should not be assessed his opponent’s attorney’s fees
unless a court finds that his claim was frivolous, unreasonable, or groundless, or that the plaintiff continued to
litigate after it clearly became so.” Id. at 422.
Rule 11 imposes a duty on counsel and parties to
make a reasonable inquiry, before filing a document, to
ensure it is well grounded in fact and law. The principles underlying Rule 11 are thoroughly presented in
Mars Steel Corp. v. Cont’l Bank N.A., 880 F.2d 928,
931– 932 (7th Cir.1989):
Rule 11 provides that a lawyer’s or party’s signature on any paper filed in district court
constitutes a certificate by the signer that the
signer has read the pleading, motion, or other
paper; that to the best of the signer's
knowledge, information, and belief formed after
reasonable inquiry it is well grounded in fact
and is warranted by existing law or a good faith
argument for the extension, modification, or reversal of existing law, and that it is not interposed for any improper purpose, such as to harass or to cause unnecessary delay or needless
increase in the cost of litigation.
1

These cases dealt with fee shifting under Title VII, but neither
party suggests that the principles are not the same for §1988.

1

68a
This has both a subjective and an objective
component. A paper “interposed for any improper purpose” is sanctionable whether or not
it is supported by the facts and the law, and no
matter how careful the pre-filing investigation.
The objective component is that a paper filed in
the best of faith, by a lawyer convinced of the
justice of his client's cause, is sanctionable if
counsel neglected to make “reasonable inquiry”
beforehand …“An empty head but a pure heart
is no defense. The Rule requires counsel to read
and consider before litigating.” [citation omitted]. Counsel may not drop papers into the
hopper and insist that the court or opposing
counsel undertake bothersome factual and legal
investigation.
Rule 11 is not a fee-shifting statute in the sense
that the loser pays. It is a law imposing sanctions if counsel files with improper motives or
inadequate investigation.
In order to give perspective on McGreal and his
counsel’s conduct and judgment, some background is
necessary. After McGreal was fired from his job in June
2010, he exercised his right to have his termination reviewed by an arbitrator under a collective bargaining
agreement between the Village and the Metropolitan
Alliance of Police. The arbitration was conducted in accordance with the Illinois Uniform Arbitration Act, 710
Ill. Comp. Stat. §§ 5/1 et seq., which requires significant
due process protections, including the employee’s right
“to be heard, to present evidence material to the controversy and to cross- examine witnesses appearing at
the hearing,” § 5/5, to be represented by an attorney, §
5/6, and to subpoena witnesses and documents, § 5/7,

69a
and the right to appeal to the Circuit Court of Cook
County, §§ 5/12, 5/16.
As reflected in the arbitrator’s decision (Dkt. 248-1,
Ex. 5), a hearing before the Federal Mediation and
Conciliation Service occurred over seventeen days between January 26, 2011 and March 2, 2012. A voluminous record of documents and witness testimony was
made. On November 14, 2012, about a month after John
P. DeRose filed an appearance in this lawsuit on behalf
of McGreal, the arbitrator rendered a 43-page singlespaced decision in which he summarized the evidence
and, concerning each charge, the union’s position, the
employer’s position, and his decision, stating reasons.
All but one of the Village’s nineteen charges were upheld. The arbitrator found by a preponderance of the
evidence that there was just cause for the termination.
He concluded that the employer had met the requirements for a pre-disciplinary hearing and that union animus was not the cause of McGreal’s “problems.” (Id. at
42.)
In December 2012, McGreal’s counsel was given
leave to file an amended complaint (Dkt. 44), mooting a
motion to dismiss the original complaint. The first
amended complaint named the Village and seven individual defendants and pleaded eight substantive claims.
Under 42 U.S.C. § 1983, McGreal claimed that the police
chief denied him due process by terminating him without cause and without a pre-termination hearing, and
had retaliated against him in response to his union activities and a public statement he made at a Village
Board meeting. He also asserted a Monell claim alleging that the Village failed to train and discipline officials
to protect officers’ constitutional rights. McGreal also
sought a declaratory judgment that the arbitrator
lacked subject matter jurisdiction, and he claimed dam-

70a
ages for breach of the collective bargaining agreement,
tortious interference with advantageous business relations, and intentional infliction of emotional distress.
On August 2, 2013, the complaint was dismissed in
substantial part, leaving only claims of violation of procedural due process for failure to provide a pretermination hearing, the First Amendment claims, and
two of the state law claims. (See Dkt. 77.) Further, the
court limited the claims to events that occurred after
June 28, 2010. As ordered, McGreal filed a second
amended complaint (Dkt. 89) narrowing his claims (although not the facts) to those surviving the motion to
dismiss.
Discovery supervision was referred to a magistrate
judge in February 2014. The magistrate judge entertained significant motion practice over the course of the
ensuing year. McGreal does not dispute that he took
twelve depositions and made 294 document requests
and that the parties presented numerous motions to the
magistrate judge. On March 24, 2015, all defendants
moved for summary judgment.
Addressing that motion, McGreal’s counsel’s submission was non-compliant with the court’s local rules, to
the point that the court found the filings so wanting
that “the motion could have been granted by simply rejecting McGreal’s Local Rule 56.1 submissions.” (Dkt.
239 at 4.) Nonetheless, skeptical that requiring a redo
would improve the situation, the court undertook the
extremely time-consuming task of “winnow[ing] the
facts to those supported by the record in order that the
case [could] be resolved on the merits.” (Id.) 2
In Malec v. Sanford, 191 F.R.D 581 (N.D. Ill. 2000), Judge Castillo
of this court set out a detailed explanation of a proper response to a

2

(footnote continued)

71a
The court ruled in favor of defendants on all claims
because McGreal lacked evidence supporting one or
more essential elements of each. The evidence demonstrated (1) that McGreal had a constitutionallyadequate pre-termination hearing because it was undisputed that he had been given notice of the reasons for
his termination, an explanation of the reasons, and an
opportunity to tell his side, all before he was terminated; (2) that he could not prove retaliation for speech or
union activities because he had no evidence that his superiors were hostile to his union activity or that his
speech at a Village Board meeting was even known to
the deciding official before the deciding official initiated
the termination process. Nor did he show that he was
disciplined more harshly than other officers with similar
conduct violations. Thus, he could not prove the causation element of his First Amendment claims, such that
the court concluded that the claims were “purely speculative.” (Id. at 16.) As to the state law claims, similarly,
McGreal proffered no evidence.
Significantly, at several points, defense counsel endeavored to dissuade McGreal’s counsel from proceeding further with the case. An email from a defense attorney to McGreal’s counsel dated February 3, 2014,
laid out in a respectful manner evidence that McGreal’s
continued litigation against the Village was “vindictive”
and entirely unsupported against six of the individual

(footnote continued from preceding page)
motion for summary judgment. Mr. DeRose was plaintiff’s counsel
in the case, thus was certainly aware of the obligations of Local
Rule 56.1 fifteen years hence. He is, indeed, no stranger to this
court, having appeared in 285 cases docketed on CM/ECF.

72a
defendants (Dkt. 248-3, 3–4 3), and sought their dismissal
on pain of Rule 11 sanctions. Counsel rejected the demand the next day, and defense counsel reiterated the
view that counsel was “refus[ing] to take a serious and
considered view of the merits of [his] client’s case,”
suggesting that a “sober review [of] the record, particularly the record of the arbitration proceedings” would
persuade him that the case lacked merit. (Id. at 2.)
In July 2014, defense counsel tried again. In a formal
letter to McGreal’s counsel, defense counsel wrote that
the case was baseless, giving notice that defendants
would seek Rule 11 sanctions if McGreal continued to
pursue the case. (Id. at 6–7.) In September, defense
counsel for certain defendants beseeched McGreal to
dismiss the case against them, again, stating, “It is now
clear after the multitude of depositions that: a) your client’s factual contentions do not have any admissible evidentiary support …” 4 (Id. at 15.) McGreal plowed
ahead, making repetitive requests for documents that
had already been produced, multiplying the litigation
unnecessarily. (See, e.g., id. at 17–19.)
McGreal, in response to the motion for attorneys’
fees, relies on the truism that fee shifting in favor of defendants in a section 1983 case is the exception and
should occur only where the case is frivolous. See, e.g.,
Johnson v. Daley, 339 F.3d 582, 587 (7th Cir. 2003) (citing Christiansburg Garment Co. and stating,
Because the exhibits in this document are not separately paginated the page numbers referenced are those found in the CM/ECF
headers
3

4

. McGreal eventually voluntarily dismissed four of the individual
defendants. (Dkts. 172, 178).

73a
“[D]efendants recover legal expenses only if the suit is
frivolous—in which event they would be entitled to recompense even without regard to a statute” 5). Remarkably, McGreal suggests that his counsel’s litigation over
the years generates work for defense lawyers, who
have commented that they would welcome more cases
from his counsel. (Unfortunately, he does not
acknowledge that, ultimately, the cost of unjustifiable
litigation is borne by defendants.) And his counsel assures the court that neither he nor his client filed this
case for any improper purpose but, rather, believed sincerely in the merit of McGreal’s claims. Finally,
McGreal drops in arguments that failed on the motion
for summary judgment and on reconsideration that his
First Amendment and intentional infliction of emotional
distress claims were meritorious, despite the paucity of
fact or law to support them.
Although it would not be unreasonable to conclude
that the case was frivolous, unreasonable, or without
foundation from the outset, the court is not fully persuaded that it was. Termination of employment is a
traumatic event for anyone, and McGreal may have believed, for example, that his union activities were at the
heart of his. Had his evidence of suspicious timing been
bolstered by any other evidence of hostility to his union
activities by the Village, perhaps he could have established at least one of his First Amendment claims. Furthermore, issues of motive and intent in a discharge situation are typically reserved for the finder of fact.
Thus, the court does not rest on the fee-shifting principles underlying section 1988.
As quoted above, Christianburg Garment actually said “frivolous,
unreasonable, or without foundation.”

5

74a
The court is persuaded, however, that under Rule 11,
McGreal’s counsel’s summary judgment filings were not
well grounded in fact or warranted by existing law or a
good faith argument for the extension, modification, or
reversal of existing law. Despite voluminous documentary discovery and more than a dozen depositions,
counsel was unable to proffer evidence supporting all
the elements of even one of his claims. Furthermore, his
responses to the defendants’ statements of material
facts were laden with disingenuous and misleading
statements. 6 Even if professions of subjective good faith
One of countless potential examples is McGreal’s response to defendant’s statement of fact no. 3: “By the conclusion of the arbitration hearing, the arbitrator had sustained seventy-five of the seventy- six charges of misconduct that had been filed against
McGreal and sustained McGreal’s termination from the OPPD.”
This statement called for a simple yes response, but McGreal disputed the documented fact, stating that the arbitrator had decided
the case before the hearing and had told him that he “would never
work in Orland Park again.” (Dkt. 220-3.) Support for this statement was a letter from union counsel to McGreal in which counsel
related, “As you know, Arbitrator Stoia requested to meet with
the Village attorney and I privately before the hearing began. He
told us that we should consider settlement and that there was ‘no
way’ that you would be going back to work as a police officer in
Orland Park.” (Dkt. 220- 25 at 1.) He continued, “[The arbitrator]
further indicated that he believes that you have lied on more than
one occasion and he expressed concern that his decision would
make it so that you may never be able to be employed as a police
officer again.” (Id.) Although the attorney did not approve of the
arbitrator’s approach and believed he had “made many decision
early in this hearing,” the attorney did advise McGreal to settle for
$5,000 to $10,000 and a neutral reference and pointed out that “it is
within the Union’s discretion to withdraw this grievance.” (Id.)
McGreal saw this as the arbitrator’s bias, although it was at least
as likely the arbitrator’s candid assessment. In either event, the
response to the statement of material facts was improper.
6

75a
by both McGreal and counsel are credited, the objective
test is not overcome.
Sadly, McGreal’s counsel has faced similar sanctions
in other cases in this court, yet seems either unable or
unwilling to incorporate into his method of practice the
lessons that should have been learned. Counsel is in all
respects known to the court as an honorable and kind
individual who has endeavored for many years to vindicate the civil rights of his clients as a “private attorney
general,” and he has achieved favorable verdicts and
settlements in some cases. 7 Nonetheless, it is unjust to
excuse the imposition of significant unnecessary expense on opposing litigants as occurred in this unfortunate case.
Under Rule 11, “[a] sanction . . . must be limited to
what suffices to deter repetition of the conduct or comparable conduct by others similarly situated. The sanction may include . . . , if imposed on motion and warranted for effective deterrence, an order directing payment to the movant of part or all of the reasonable attorney's fees and other expenses directly resulting from
the violation.” For all of the reasons set out above, the
court will allow a reasonable attorney’s fee to defense
counsel for their services in preparing the Rule 11 letter to McGreal’s counsel, the reply to the motion for
Of the ten cases filed by Mr. DeRose from January 2005 through
August of 2006, five were disposed of in the district court either by
dismissal or summary judgment in favor of the defense (case nos.
05 C 336, 05 C 1421, 05 C 1577, 05 C 1888, 05 C 6338). Two appear
to have been settled (nos. 05- 3108, 06-4345), one voluntarily dismissed (05 C 3400), and two tried to a jury, one resulting in a defense verdict (05 C 638) and the other a plaintiff’s verdict, for
which Mr. DeRose was awarded approximately $185,000 in fees (06
C 1462).
7

76a
summary judgment and the motion for attorneys’ fees, 8
as well as any other labor that resulted from the motion
(other than the bill of costs). This is a small fraction of
the fees billed to a small municipality in defense of a legitimate discharge of a police officer (see Dkt. 281-1)
but, as stated in Mars Steel, Rule 11 is not a fee shifting
device. Rather, the sanction is directed at McGreal’s
counsel to impress upon him that his conduct has consequences.
ORDER
All defendants’ motion for attorneys’ fees (248) is
granted in part and denied in part. The court awards a
reasonable attorney’s fee to defendants’ counsel for
their services in preparing the Rule 11 letter to
McGreal’s counsel, the reply to the motion for summary
judgment, and the motion for attorneys’ fees, as well as
any other labor that resulted from the motion (other
than the bill of costs). The fees shall be paid by John D.
DeRose. The parties shall proceed according to Local
Rule 54.3(d)–(g). A motion for a specific award of fees
shall be filed within 70 days of the entry of this order.
Date: September 27, 2017
/s/ Joan H. Lefkow
U.S. District Judge

See Rule 11(c)(2) (“If warranted, the court may award to the prevailing party the reasonable expenses, including attorney’s fees
incurred for the motion.”). Although defendants request $500,000
as reimbursement for fees billed to the case, the motion does not
make clear whether defendants are seeking fees for the appeal or
whether this court would have jurisdiction to award them as a consequence of the unwarranted response to the motion for summary
judgment. As such, fees for the appeal are denied.

8

77a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
_________________
No. 12-cv-5135
Joseph S. McGreal,
v.
Village of Orland Park, et al.,

Plaintiff,
Defendants.

ORDER
Defendants’ motion to set amount of attorneys’ fees
to be awarded (Dkt. 287) is granted. Defendants are
awarded attorneys’ fees in the amount of $66,191.75
against Attorney John P. DeRose. Plaintiff’s “motion
and statement” in response to LR 54.3(e) and (f) to vacate order assessing Rule 11 sanctions against Attorney
DeRose (Dkt. 289) is denied.
STATEMENT
Plaintiff’s objections to defendants’ submission of
their attorneys’ hours as “unnecessary, redundant, and
duplicative of each other’s work” lacks reference to a
particular instance of any of those characterizations.
Therefore, these objections are deemed waived. The
court has reviewed defendants’ submission and sees no
evidence of unnecessary time devoted to the tasks detailed in their time sheets. Plaintiff states that he spent
187 hours responding to the defendants’ motion for
summary judgment, suggesting that a reply memorandum should take less time than the approximate 275
hours defendants invested in the reply. This might be
true in general, but here defendants’ 53-page submission on summary judgment elicited a response of 90

78a
pages (excluding exhibits), including a Local Rule 56.1
statement that this court has already described as noncompliant and “laden with disingenuous and misleading
statements.” (Dkt. 286 at 2, 8) Two inferences could be
drawn from this: (1) that Mr. DeRose did not spend
enough time and (2) that defendants’ labor responding
to the submission was more time-consuming as a result.
The court finds the time spent by defendants reasonable, as were their hourly rates of $275 and less. Moreover, they have expressed willingness to forgo fees
awarded for preparing the motion for fees and their response to the motion to reconsider the court’s ruling, a
total of nearly $28,000. In all, the defendants request for
only the fees related to its reply memorandum is reasonable.
Plaintiff raises the point that defendants did not
comply with Rule 11 by filing a separate motion from
the motion for fees under § 1988 and by failing to give
him a safe harbor warning after filing the motion, which
would have given him an opportunity to withdraw the
document. Plaintiff made no mention of either of these
objections in response to the motion for fees (Dkt. 253),
at a time when the court could have considered his position before ruling. The substance of the defendants’ motion was that the entire case was unfounded in fact or
law, an allegation that was borne out as far as this court
and the court of appeals could discern. Defendant repeatedly made that point to Mr. DeRose to no avail.
This procedural omission is not sufficient cause to upset
the court’s ruling.
Date: September 26, 2018
/s/ Joan H. Lefkow
U.S. District Judge

79a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
_________________
No. 12-cv-5135
Joseph S. McGreal,
v.
Village of Orland Park, et al.,

Plaintiff,
Defendants.

ORDER
The motion of Attorney John P. DeRose to reconsider order awarding attorney’s fees against him (Dkt.
294) is denied.
STATEMENT
Mr. DeRose relies on Northern Illinois Telecom,
Inc. v. PNC Bank, NA, 850 F.3d 880 (7th Cir. 2017), in
support of his position that the court should not have
excused the moving defendants’ failure to follow the
“safe harbor” procedure of Rule 11, Fed. R. Civ. P. Mr.
DeRose states, without record citation, that he called
the case to the court’s attention nine months before the
order imposing sanctions was entered. Whether or not
that occurred, Mr. DeRose did not cite the case when
the motion for sanctions was before this court, which
was the appropriate time to bring it to the court’s attention. Furthermore, PNC Bank did not overrule the
Seventh Circuit’s holding in Nisenbaum v. Milwaukee
Cty., 333 F.3d 804, 808 (7th Cir. 2003), that substantial
compliance with the warning-shot requirement is sufficient for the court to rule on the merits of the motion.
“Substantial compliance requires the opportunity to
withdraw or correct the challenged pleading within 21

80a
days without imposition of sanctions.” PNC Bank, 850
F.3d at 888. Here, defense counsel Michael J. Wall
wrote a detailed letter to Mr. DeRose on July 16, 2014,
in advance of the defendants’ filing their motions for
summary judgment, setting out the basis for his position that the entire case was unfounded in fact and law,
demanding that he dismiss the case or “I shall proceed
with the filing of the referenced motions [for summary
judgment and for sanctions.]” (Dkt. 248-3.) Mr. Wall
wrote a supplemental letter on September 30, 2014, further explaining his view that Mr. DeRose’s conduct in
discovery was harassing and only demonstrated the
lack of substance to plaintiff’s claims. (Id.) Mr. Wall
again demanded that Mr. DeRose dismiss the case.
Numerous other email exchanges made the same point
and Mr. DeRose without fail declined to reconsider,
forcing defendants to prepare the summary judgment
motion and supporting materials. Judgment was entered on April 15, 2016 and plaintiff’s motion for reconsideration was denied on May 24, 2016. Thirty days later, defendants filed their bill of costs and motion for attorney fees under 42 U.S.C. § 1988 and Rule 11. Mr.
DeRose responded 28 days later. Rather than folding
his tent even at that late date, Mr. DeRose proceeded
with an unsuccessful appeal. There is little basis in this
record for Mr. DeRose to have been “unclear as to both
whether the opposing party is serious and when the 21day safe-harbor clock starts to run.” PNC Bank, 850
F.3d at 888.
Because the argument was not made in a timely
manner and because the court finds substantial compliance with the safe harbor procedure, the court denies
the motion.
Date: October 12, 2018
/s/ Joan H. Lefkow
U.S. District Judge

81a
APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
_________________
No. 18-3342
Joseph S. McGreal, ,

Plaintiff,

v.
Village of Orland Park, et al.,
Defendants-Appellees.
___________
Appeal of: John P. DeRose, Counsel for Plaintiff,
Appellant.
Filed: August 20, 2019
_________________
Before KANNE, SYKES, AND BRENNAN, Circuit
Judges.
The Appellant filed a petition for rehearing and
rehearing en banc on July 10, 2019, and on July 31, 2019,
the Appellees filed an answer to the petition. No judge
in active service has requested a vote on the petition for
rehearing en banc and all members of the original panel
have voted to deny rehearing. It is, therefore,
ORDERED that rehearing and rehearing en banc are
DENIED.

82a
APPENDIX I
Federal Rules of Civil Procedure, Rule 11. Signing
Pleadings, Motions, and Other Papers; Representations to the Court; Sanctions
(a) SIGNATURE. Every pleading, written motion, and
other paper must be signed by at least one attorney of
record in the attorney's name—or by a party personally
if the party is unrepresented. The paper must state the
signer's address, e-mail address, and telephone number.
Unless a rule or statute specifically states otherwise, a
pleading need not be verified or accompanied by an affidavit. The court must strike an unsigned paper unless
the omission is promptly corrected after being called to
the attorney's or party's attention.
(b) REPRESENTATIONS TO THE COURT. By presenting to
the court a pleading, written motion, or other paper—
whether by signing, filing, submitting, or later advocating it—an attorney or unrepresented party certifies
that to the best of the person's knowledge, information,
and belief, formed after an inquiry reasonable under the
circumstances:
(1) it is not being presented for any improper purpose, such as to harass, cause unnecessary delay, or
needlessly increase the cost of litigation;
(2) the claims, defenses, and other legal contentions are warranted by existing law or by a
nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law;
(3) the factual contentions have evidentiary support or, if specifically so identified, will likely have
evidentiary support after a reasonable opportunity
for further investigation or discovery; and

83a
(4) the denials of factual contentions are warranted on the evidence or, if specifically so identified, are
reasonably based on belief or a lack of information.
(c) SANCTIONS.
(1) In General. If, after notice and a reasonable
opportunity to respond, the court determines
that Rule 11(b) has been violated, the court may impose an appropriate sanction on any attorney, law
firm, or party that violated the rule or is responsible
for the violation. Absent exceptional circumstances, a
law firm must be held jointly responsible for a violation committed by its partner, associate, or employee.
(2) Motion for Sanctions. A motion for sanctions
must be made separately from any other motion and
must describe the specific conduct that allegedly violates Rule 11(b). The motion must be served under Rule 5, but it must not be filed or be presented to
the court if the challenged paper, claim, defense, contention, or denial is withdrawn or appropriately corrected within 21 days after service or within another
time the court sets. If warranted, the court may
award to the prevailing party the reasonable expenses, including attorney's fees, incurred for the
motion.
(3) On the Court's Initiative. On its own, the court
may order an attorney, law firm, or party to show
cause why conduct specifically described in the order
has not violated Rule 11(b).
(4) Nature of a Sanction. A sanction imposed under this rule must be limited to what suffices to deter
repetition of the conduct or comparable conduct by
others similarly situated. The sanction may include
nonmonetary directives; an order to pay a penalty in-

84a
to court; or, if imposed on motion and warranted for
effective deterrence, an order directing payment to
the movant of part or all of the reasonable attorney's
fees and other expenses directly resulting from the
violation.
(5) Limitations on Monetary Sanctions. The court
must not impose a monetary sanction:
(A) against a represented party for violating Rule 11(b)(2); or
(B) on its own, unless it issued the show-cause
order under Rule 11(c)(3) before voluntary dismissal or settlement of the claims made by or against
the party that is, or whose attorneys are, to be
sanctioned.
(6) Requirements for an Order. An order imposing a sanction must describe the sanctioned conduct
and explain the basis for the sanction.
(d) INAPPLICABILITY TO DISCOVERY. This rule does not
apply to disclosures and discovery requests, responses,
objections, and motions under Rules 26 through 37.

